<html>
<title> - RECENT DEVELOPMENTS AND HISTORY OF THE CHEN GUANGCHENG CASE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
      RECENT DEVELOPMENTS AND HISTORY OF THE CHEN GUANGCHENG CASE 

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

74-808 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS


House                                   Senate

CHRISTOPHER H. SMITH, New Jersey,       SHERROD BROWN, Ohio, Cochairman
  Chairman                              MAX BAUCUS, Montana
FRANK WOLF, Virginia                    CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois            DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California             JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                     SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                      JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)



                             C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page
Opening statement of Hon. Chris Smith, a U.S. Representative from 
  New Jersey; Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Wolf, Hon. Frank, a U.S. Representative from Virginia; Member, 
  Congressional-Executive Commission on China....................     4
Fu, Bob, Founder and President, ChinaAid Association.............     8
Richardson, Sophie, China Director, Human Rights Watch...........    11
Kumar, T., Director for International Advocacy, Amnesty 
  International USA..............................................    13
Littlejohn, Reggie, President, Women's Rights Without Borders....    14
Horowitz, Michael, Senior Fellow, Hudson Institute...............    16
Cao, Yaxue, Human Rights Advocate, Blogger.......................    20
Wang, Xuezhen, Human Rights Advocate.............................    23

                                APPENDIX
                       Submissions for the Record

Paper entitled ``After Leaving the U.S. Embassy, Chen Guangcheng 
  Says He Wants to Leave China with His Family,'' dated May 3, 
  2012, submitted by Bob Fu......................................    40
Letter to U.S. Trade Representative Ron Kirk (and high-ranking 
  State and Commerce Department officials), dated January 23, 
  2012, submitted by Rep. Frank Wolf.............................    45
Written statement submitted by Chai Ling, President and Founder, 
  All Girls Allowed, dated May 3, 2012...........................    47


      RECENT DEVELOPMENTS AND HISTORY OF THE CHEN GUANGCHENG CASE

                              ----------                              


                         THURSDAY, MAY 3, 2012

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:03 p.m., 
in room 2172, Rayburn House Office Building, Representative 
Christopher Smith, Chairman, presiding.
    Also present: Representative Frank Wolf.

 OPENING STATEMENT OF HON. CHRIS SMITH, A U.S. REPRESENTATIVE 
 FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Chairman Smith. The Commission will come to order. Good 
afternoon.
    The daring escape of Chinese legal advocate Chen Guangcheng 
from illegal home confinement was nothing short of a miracle, 
and it has taken the world, not to mention the Chinese 
officials and Chen's guards themselves, by complete surprise.
    It was a great relief that I, and millions around the 
world, learned of his escape and his reaching safety at the 
American Embassy in Beijing on Friday morning. Yet, it is with 
equally great concern that I convene this hearing of the China 
Commission today.
    Having been handed over to the Chinese officials by 
American diplomats yesterday, Chen, his wife Yuan, and the rest 
of his family and friends appear to be in significant danger. 
Notwithstanding vague and potentially empty safety assurances 
from the Chinese side, Chen has, since leaving the American 
Embassy in Beijing, expressed an earnest desire to gain asylum 
for himself and for his family.
    Questions indeed arise as to whether or not Chen was 
pressured to leave the U.S. compound.
    A CNN interview, reported by the Atlantic, says, ``Chen's 
comments portray the United States as manipulating him, cutting 
him off from outside communication, and encouraging him to 
leave the Embassy rather than seek asylum. He says he was 
denied his request to call friends. He said he felt the Embassy 
officials had lied to him,'' says the report.
    `` `The Embassy kept lobbying me,' '' it goes on to say, `` 
`to leave and promised to have people stay with me in the 
hospital. But this afternoon, as soon as I checked into the 
hospital room, I noticed they were all gone. I'm very 
disappointed at the U.S. Government. I don't think U.S. 
officials protected human rights in this case.' ''
    ``When asked why he had left the Embassy rather than 
staying and perhaps seeking asylum,'' the article goes on, 
``Chen seems to blame the Embassy officials. `At the time I 
didn't have a lot of information. I wasn't allowed to call my 
friends from inside the Embassy. I couldn't keep up with the 
news so I didn't know a lot of things that were happening.' ''
    ``Chen agreed when Jiang,''--the CNN reporter--``asked him, 
`If you stay in China, is there no future? ' He also said that 
he had tried calling two U.S. Embassy officials `numerous 
times' but that no one had answered.'' `` `I told the Embassy I 
would like to talk to Representative Chris Smith, but they 
somehow never managed to arrange it. I felt, and feel, a little 
puzzled.' ''
    For the record, I placed a call to Chen on May 1 at 9 p.m. 
Eastern Standard time, after being informed by one of Chen's 
American friends that he wanted to speak with me. I waited all 
night, until 4 a.m., for a call back from the high U.S. 
official I was told could arrange that and the call never came.
    There are many questions, and there are even more concerns. 
How will the United States-China agreement on Chen and his 
family's safety be enforced? What happens if Chen, or any 
member of his family, suffers retaliation? Where is Chen's 
nephew, Chen Kegui? What happens now to He Peirong, the 
courageous young woman who drove Chen to safety? Like I said, 
there are many questions.
    Next week, I hope to convene another hearing of this 
Commission on Chen in order to take testimony from the Obama 
administration witnesses and to get some answers.
    Our purpose today is to examine his case and discern the 
likelihood that his family, and Chen, and supporters have any 
opportunity of true freedom and safety going forward and 
whether asylum remains a viable option.
    The story of Chen Guangcheng has been extraordinary and 
inspirational from the beginning. Blinded by a childhood 
illness, Chen pushed past profound barriers to school himself 
in Chinese law and became an advocate for the rights of the 
vulnerable, including disabled persons and rural farmers.
    Years later when local villagers told him of their stories 
of forced abortions and forced sterilizations, Chen and his 
wife Yuan Weixing documented these stories, later building 
briefs for a class action lawsuit against the officials 
involved.
    Their efforts gained international news media attention in 
2005, and their challenge to China's draconian population 
control policies spurred harsh and extended official 
retaliation, including torture and beatings.
    The Commission and other committees of the Congress have 
examined China's population control policies many times. As a 
matter of fact, from this podium itself I have heard from 
victims and had victims give testimony about that brutal one-
child-per-couple policy.
    We even heard from a woman who ran the program, Mrs. Gao 
from Fujian Province, who said, self-described, ``By day I was 
a monster, by night a wife and mother,'' and told how the full 
weight of the dictatorship was behind her efforts to ensure 
that children were not born.
    China sometimes paints a false picture for gullible 
foreigners that the policy is somehow being eased or mitigated, 
but the few exceptions they permit do not fundamentally modify 
its rough, harsh, brutal, and ugly character. Chen Guangcheng 
and his wife knew it, and they faced huge retaliation for 
speaking out against it.
    For the record, family planning officials down to the 
village and local level maintain extreme vigilance on out-of-
plan children. The English phrase they use is ``family 
planning,'' but the plan is not the family's plan, but the 
State's. They use the word ``measures'' to mask what they do. 
What they do is forced abortions and involuntarily 
sterilizations.
    When an out-of-plan birth does take place, they impose 
crushing fines on the couple. All unwed mothers are compelled 
by the State to abort. Among China's many coercions and 
tyrannies, this is the one that touches virtually every 
Chinese, especially women and children, and we now know that 
there are missing girls by the tens of millions, the lost 
daughters of China.
    It was Chen Guangcheng who challenged these horrific 
violations of women's rights, and that is when the hammer fell. 
Chen Guangcheng has faced enormous government opposition for 
his efforts, but he has refused to back down. He and his family 
have paid a dear price. Chen, his wife, mother, and children, 
have separately and repeatedly been harassed and denied their 
basic freedoms now for seven years.
    After serving more than four years in prison on trumped up 
charges, Chen was released in 2010, only to be locked up with 
his family in their home under 24-hour surveillance, with all 
forms of communications with the outside world severed. On more 
than one occasion, Chen and his wife were severely beaten and 
then denied medical treatment for their injuries.
    Their six-year-old daughter, Chen Kesi, was prevented from 
attending school. This was in violation of the child's right to 
an education and more payback for her parents' actions. In the 
past few months, this little girl has been permitted to attend 
school, but only with three guards with her everywhere she 
goes.
    In all of this and more, Chen Guangcheng and his family 
have endured this as so-called ``free citizens'' under Chinese 
law. It is no wonder then that when Chen felt it worth risking 
his life to escape this hellish condition, last week he sought 
our help, the U.S. Government. His three demands to Premier Wen 
laid out in an online video he posted are incredibly cogent, 
and urged the Chinese Government to address them fully and 
immediately.
    In a background briefing, a senior U.S. official in Beijing 
explained that Chen consistently expressed his wish that he and 
his family stay in China, and that they be ensured the lives of 
normal citizens. It is unclear whether the path to political 
asylum was discussed seriously, or whether it was done so in a 
hurry, or whether he was pressured in any way and at any time 
in the process to remain in China, especially with the Summit 
that began today.
    He is now away from the Embassy in a local hospital, asking 
for the right to leave. He said, ``I think we'd like to rest in 
a place outside of China. Help my family and I leave safely,'' 
he told the Associated Press. The eyes of the world are 
watching to see that his wishes are honored by the Chinese 
Government.
    I, and everyone on our Commission and in Congress, are 
gravely concerned for the safety, well-being, and whereabouts 
of Chen's supporters, including He Peirong, who drove him from 
his village to Beijing on the night of his escape, and now 
remains incommunicado. We are also concerned about the other 
members of the family, and that is why we are convening this 
important hearing today.
    I would like to now yield to my good friend and colleague, 
the Chairman of the Lantos Human Rights Commission, Congressman 
Frank Wolf.

   STATEMENT OF HON. FRANK WOLF, A U.S. REPRESENTATIVE FROM 
 VIRGINIA; MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Representative Wolf. Thank you, Chris.
    I want to begin by thanking the Chair, Congressman Chris 
Smith, who has championed Chen's case in Congress. Today's 
hearing is just the latest chapter in what is a long history of 
Congressman Smith's dogged human rights advocacy.
    It is fitting that Chen reportedly requested to speak to 
Congressman Smith when he was at the U.S. Embassy, although one 
of the many questions surrounding Chen's case is why that phone 
call was never facilitated. As the news cycle unfolded 
yesterday, what began as a purported diplomatic triumph evolved 
into a diplomatic fiasco, and now the fate of this man and his 
family hangs in the balance.
    While details are still emerging, it appears that the most 
generous read of the administration's handling of this case is 
that it was naive in accepting assurances from a government 
that has a well-known and documented history of brutally 
repressing its own people.
    Consider some of the following, and if you think about 
these things: in the last year alone more than 30 Tibetan monks 
and nuns, including several who were very young, have set 
themselves aflame in desperation at the abuses endured by their 
people. Every one of the approximately 25 underground Catholic 
bishops is either in jail or under house arrest, under strict 
surveillance, or in hiding.
    Protestant house church leaders are routinely imprisoned 
and harassed. The lawyers that defend them are often given the 
same fate. In fact, when I traveled to China with Congressman 
Smith in 2008 before the Beijing Olympics, every single one of 
the dissidents and lawyers that we were to have dinner with one 
night were either detained or warned not to attend, with one 
exception. That person who made it was subsequently placed 
under house arrest.
    China presently spends more on public security in an 
attempt to control its population than it does on its own 
defense. Our own State Department's Annual Human Rights Report 
found that China is ``an authoritarian state'' where the 
government continues to muzzle freedom of speech and press and 
reign in civil society.
    This February, the Chinese Government went so far as to 
deny a visa to Suzan Johnson Cook, the U.S. Ambassador for 
International Religious Freedom. At the very time the Vice 
President of China was meeting with the President of the United 
States, President Obama, the President's Ambassador for 
Religious Freedom, Suzan Johnson Cook, couldn't even get a visa 
to go to China. Of course, China has the barbaric practice of 
forced abortions and sterilization and it was this very abuse, 
which Chen has sought to shine a bright light on.
    The list goes on. In short, Chen's case is not an anomaly, 
but symptomatic of pervasive human rights abuses committed by 
the Chinese Government against its own people.
    As recently as today, the Washington Post reported that 
China ``continues its crackdown on people who are believed to 
have helped Chen.'' Chen's heroism in escaping house arrest has 
been matched only by that of the brave individuals who, at 
great personal risk to themselves, assisted him in breaking 
free from the captors who had tormented, isolated, and 
mistreated him for more than 18 months. Several have 
subsequently been detained, arrested, or placed under house 
arrest.
    In light of the realities and the newly emerging accounts 
of how Chen's wife was treated in the days following his 
escape, notably that Chinese officials detained her, and 
threatened to beat her to death if Chen did not leave the U.S. 
Embassy, it is hard to comprehend why the administration would 
accept at face value assurances that Chen would be safe upon 
exiting U.S. protection.
    You wonder if there were other forces at work. Had word 
come down from on high to resolve the Chen situation no matter 
what prior to the arrivals of Secretaries Clinton and Geithner 
who were headed to Beijing this week for high-level economic 
and foreign policy talks?
    Was there even a hint of coercion? Was there any coercion, 
subtle coercion, forced coercion, or pressure involved? What 
were the internal State Department and White House 
deliberations? When the dust settles, I intend to formally 
request to review all cable traffic, classified or otherwise, 
that surrounded these negotiations.
    Further, the administration has an obligation to release 
the details of the deal that was struck with the Chinese 
Government, especially given how quickly it appears to have 
unraveled. It has been reported that Chen was told that a U.S. 
Government official would stay with him at the hospital, and 
yet, according to one news account, Chen said, ``Many Americans 
were with me while I checked into the hospital and doctors 
examined me, lots of them, but when I was brought to the 
hospital room they all left. I don't know where they went.'' 
Was Chen deceived? Was that part of the arrangement? If not, 
why not? If so, why did Chen find himself alone, isolated and 
fearful, just hours after he left U.S. protection?
    There are more questions than answers at this juncture. I 
hope today's witnesses will shed some light on the matter, 
especially Bob Fu, Chen's friend and a man who is personally 
connected to some of China's most courageous dissidents and 
advocates.
    Even though there is much we do not know, this much is 
certain: The administration, the Obama administration, has a 
high moral obligation to protect Chen and his family. To do 
anything less would be scandalous. President Ronald Reagan 
famously said that ``the U.S. Constitution is a covenant that 
we have made not only with ourselves, but with all of 
mankind.''
    Some in Washington may forget that the document forged in 
those hot Philadelphia summer days of 1787 transcends history, 
but dissidents and freedom-loving people the world over know 
this intuitively to be true.
    There is a reason the student protesters in Tiananmen 
Square read Chinese translations of the American Declaration of 
Independence and carried papier mache models of what looked to 
be the Statute of Liberty.
    America missed an opportunity. When history looks at it, 
America missed an opportunity in Tiananmen. Will this 
administration, too, fail to seize a historic moment? The 
reverberations of such a failure are nearly impossible to 
calculate. The world is watching, both dictators and 
dissidents. The administration must be bold. The administration 
must ensure Chen's safety and that of his family. If news 
reports are to be believed about Chen's wishes, the 
administration must--must--grant him and his family asylum and 
refuse--refuse, refuse--to apologize, despite a Chinese 
Government demand.
    Throughout history, America's embassies have been islands 
of freedom. Recall the group of Pentecostals known as the 
Siberian Seven, who, seeking religious freedom and the right to 
emigrate, lived in the U.S. Embassy in Moscow for five years 
beginning 1978. No one in the Carter administration, no one in 
the Reagan administration said they had to leave. No one 
negotiated and said, go out and be on your own in Moscow. They 
allowed them to stay five years.
    Or consider Joseph Cardinal Mozinski, a stalwart opponent 
of Communism and defender of religious freedom who took refuge 
in a U.S. Embassy in Budapest for 15 years. Chen initially 
found safety in the Embassy and now that guarantee is 
jeopardized.
    I am confident there will come a day when the Communist 
Party's brutal reign will end, when the Chinese people will 
experience a new birth of freedom. Men like Chen and women like 
fellow dissident Pearl who helped facilitate Chen's escape 
represent China's future. Their oppressors and the One Party 
structure that sustained them will be on the trash heap of 
history. The same way that President Reagan said ``tear down 
the wall and the evil empire, and they will fall,'' the same 
thing will happen to the Chinese Government. Until that day 
comes, America should always stand with the Chens of the world.
    Again, I thank the Chairman for having this hearing and 
yield back the balance of my time.
    Chairman Smith. Thank you very much, Chairman Wolf.
    I'd like to now introduce our very distinguished--we have 
six outstanding human rights advocates who are testifying 
today, and I will begin, first, with Pastor Bob Fu, who was a 
leader in the 1989 student democracy movement in Tiananmen 
Square, and later became a house church pastor and founder, 
along with his wife.
    In 1996, authorities arrested and imprisoned them for their 
work. After their release, they escaped to the United States in 
2002 and founded ChinaAid Association. ChinaAid monitors and 
reports on religious freedom in China and provides a forum for 
discussion among experts on religion, law, and human rights in 
China.
    Pastor Fu is frequently interviewed by media outlets around 
the world and has testified at U.S. congressional hearings. I 
will note parenthetically that when Chairman Wolf and I were in 
China on one of our many trips we contacted Bob Fu, who helped 
arrange for us to meet with house church leaders.
    We, in a very kidding way, said that we were heading to 
Tiananmen Square to unfurl a banner that said ``Human Rights,'' 
and within an hour, our Embassy--because I'm sure Bob Fu's 
phone is tapped--was contacted to say Wolf and Smith will be 
deported immediately if that happens. So here's a man who is 
being watched, and yet speaks out and has incredible contacts 
inside of China.
    Dr. Sophie Richardson is the China Director at Human Rights 
Watch. A graduate of the University of Virginia, the Johns 
Hopkins Nanjing Program, and Oberlin College, Dr. Richardson is 
the author of numerous articles on domestic Chinese political 
reform, democratization, and human rights in Cambodia, China, 
Hong Kong, and the Philippines.
    She has testified before the European Parliament and the 
U.S. Senate and the House. She has provided commentary with the 
BBC, CNN, Far Eastern Economic Review, Foreign Policy National 
Public Radio, the New York Times, the Wall Street Journal, and 
the Washington Post.
    Dr. Richardson authored ``China and Cambodia: Five 
Principles of Peaceful Co-Existence'' in December 2009, an in-
depth examination of China's foreign policy since 1954's Geneva 
Conference, including rare interviews with policymakers.
    We will then hear from T. Kumar, who is Amnesty 
International's Director for International Advocacy. He has 
testified before our Subcommittee on Human Rights--my 
subcommittee--many times, and before other House and Senate 
forums.
    He has served as a human rights monitor in many Asian 
countries, as well as in Bosnia, Afghanistan, Guatemala, Sudan, 
and South Africa. He has also served as director of several 
refugee ships and camps.
    Kumar holds an advanced degree in law from the University 
of Pennsylvania Law School, and taught at American University's 
Academy on Human Rights and Humanitarian Law.
    Mr. Kumar was himself a political prisoner for over five 
years in Sri Lanka for his peaceful human rights activities. 
Amnesty International adopted him as a prisoner of conscience. 
He started his legal studies in prison and eventually became an 
attorney and devoted his entire practice to defending political 
prisoners, which is what he does now with Amnesty.
    We will then hear from Wang Xuezhen, who is a human rights 
advocate and purchasing agent for a furniture business from 
Shandong Province who recently fled to the U.S. to escape 
constant monitoring and harassment from Chinese authorities 
following her ongoing advocacy on behalf of Chen Guangcheng.
    Along with other human rights advocates including He 
Peirong, Wang attempted to visit Chen Guangcheng on several 
occasions during his 19-month home confinement and participated 
in numerous advocacy activities to free Chen. Authorities' 
treatment of Wang includes beatings, constant monitoring, and 
detentions. Authorities detained her and her husband for two 
weeks in December 2011 as they were preparing to travel to 
Jinyin City to participate in a Free Chen Guangcheng activity.
    We will then hear from Cao Yaxue, who is an independent 
writer, translator, and blogger about China. She grew up in 
China, attended Peking University and studied literature in the 
United States. Her writings and translations explore aspects of 
China's past and present, with a heavy emphasis on human rights 
and the rule of law, including multiple pieces on Chen 
Guangcheng.
    Her posts have been frequently quoted at length by 
mainstream media outlets such as the New York Times. She had 
phone contact with at least one member of Chen's extended 
family after Chen's escape and has been reporting on the 
family's situation.
    We will then hear from Michael Horowitz, senior fellow at 
the Hudson Institute in Washington. He is also director of the 
Hudson Institute's Project for Civil Justice Reform and Project 
for International Religious Liberty. He served as general 
counsel for the Office of Management and Budget under the 
Reagan administration and taught law at the University of 
Mississippi and Georgetown.
    He has also practiced private law as a partner at national 
law firms. He has written frequently on Internet issues and 
human rights topics and he holds a B.A. from City College of 
New York and got his LL.B from Yale Law School.
    I would also note parenthetically that Michael Horowitz, as 
my good friend and colleague Mr. Wolf will attest, has been the 
genius behind many human rights initiatives that have found 
their way into law in the United States on religious freedom, 
the North Korea Human Rights Act, and other initiatives.
    We will then hear from Reggie Littlejohn, who is President 
of Women's Rights Without Frontiers, a nonpartisan 
international coalition to oppose forced abortion and sexual 
slavery in China, as well as an expert on China's one-child 
policy. She has testified before the European and British 
Parliaments and the U.S. Congress.
    She has also briefed officials at the White House, the U.S. 
Department of State, and the Vatican. She has also been 
interviewed on dozens of TV and radio programs and has spoken 
at Harvard Law School, Stanford Law School, George Washington 
University, and The Heritage Foundation.
    She has issued several incisive reports that are included 
in the congressional record. A graduate of Yale Law School, Ms. 
Littlejohn has represented Chinese refugees and their political 
asylum cases in the United States.
    I would like to now ask Pastor Fu if you would proceed.

     STATEMENT OF BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Thank you, Chairman Smith and Congressman Wolf, 
other Members of Congress, and your excellent staff at the 
CECC.
    I want to maybe just ask to submit my written version.
    Chairman Smith. Sure. Without objection, your full 
statement, and any items you would like to affix to it, will be 
made a part of the record.
    Mr. Fu. As the President of ChinaAid Association, I am 
familiar with the details of Chen Guangcheng's escape and was 
in contact with the team of people who helped Chen flee to 
Beijing. I actually learned Chen left his house on April 23.
    After Chen left the U.S. Embassy, I stayed in close contact 
with both the relevant U.S. Government officials and people who 
are intimates of Chen who have been in telephone communication 
with him. From them all, I have amassed a great deal of first-
hand information on the developments that have led to the 
current situation, which is rather shocking, regrettable, 
heart-rending, and disappointing.
    There are some important episodes that are confusing and I 
think need immediate clarification. First, according to the 
U.S. State Department and the U.S. Embassy in Beijing and the 
official Chinese announcement, Chen Guangcheng left the Embassy 
of his own volition.
    However, according to my conversation last night with Mr. 
Chen and several media reports, including the Associate Press, 
and the first-hand information from Chen's friend and fellow 
lawyer, Teng Biao and from Zeng Jinyan, the wife of dissident 
Hu Jia, the U.S. officials relayed to Chen the threat made by 
the Chinese side to threaten his wife, Yuan Weijing. It was 
after learning of this threat that Chen was left with no choice 
but to reluctantly leave the U.S. Embassy.
    Much of the dispute between the accounts of the State 
Department and the U.S. negotiators and Chen's recount with the 
media, I think, was around how to characterize that 
conversation on May 2 before Chen walked out of the U.S. 
Embassy, relayed by the U.S. official.
    The message seems to suggest--well, let me put it this way. 
Chen was talked to by a U.S. Government official before he 
stepped out of the Embassy and he was told it was a Chinese 
Government message, that the Chinese Government wanted to 
convey that message through the U.S. Government official, that 
if he chose not to walk out of the Embassy on May 2 he would 
not be able to see his wife and his children again. His wife 
and children will be returned to the Dongshigu village, the 
Shuanghou town, Linyi city, which has been hell for this 
family.
    According to my conversation last night as I tried to 
verify the nature of that conversation, what really happened, 
Chen said after hearing that message from the Chinese 
Government, conveyed by a U.S. official, his heart was heavy 
and he felt he had no other choice but to walk out of the U.S. 
Embassy.
    It sounded to him like it was a one-way street, either/or. 
Either he stays in the U.S. Embassy but faces the reality that 
his wife and children would be gone, maybe for their whole 
life, and he would not be able to see his wife and two 
children. Of course he did not know at the time how his wife 
had already been treated after April 27 when the Chinese guards 
found Chen was missing.
    Chen's wife was immediately taken to ``xingjingdui 
shenxunshi,'' a criminal interrogation center, where she was 
tied and beaten and was threatened with her life. Basically, 
the interrogator told her that if her husband did not walk out 
of the U.S. Embassy, they would kill her. Chen, of course, 
learned about that after he had a reunion with his wife in 
Chaoyang Hospital. That was the second phase.
    I think that was clear to anyone with reasonable logic that 
that should constitute a threat. If that conversation occurred 
anywhere here, I think that would demand a 911 call. What 
happened to his wife and to their children? His eight-year-old 
son was not even able to be seen by this couple for two years. 
What happened to them in the past seven years with this 
enormous torture and harassment and constant threat to this 
family.
    Their six-year-old daughter, as Chen recounted at the 
interview--his 80-year-old mother was beaten up, wounded, and 
the government would not even allow her, on her birthday, to 
receive medical treatment, in front of this six-year-old girl. 
I don't know if that is a threat or not, but to me, after 
hearing what Chen has told me yesterday, I verified over the 
phone and I actually videotaped my conversation with him.
    I think I have a few questions I want to ask the U.S. chief 
negotiator, or whoever led that: Who is the one that relayed 
that information to Chen? What exactly was the wording from the 
Chinese Government? What was the U.S. response initially to 
that message by the Chinese Government? Why does he have to 
walk, on May 2? Why that date? Why was there no other option on 
the table offered to Chen?
    For instance, why would the U.S. Embassy not tell Chen that 
you have a choice, you can stay and we can continue to 
negotiate with the Chinese Government to allow your wife and 
two children to come to the U.S. Embassy so that you can have a 
safe environment to discuss your future? Why does that have to 
be a one-way street?
    I think these questions need to be answered. I certainly 
appreciate Ambassador Gary Locke and the administration 
officials who made the right decision on April 26 to allow Chen 
at least to have the six days without pressures and time of 
freedom for the first time in seven years. But I do want to ask 
these questions.
    I certainly think that some conversations I had yesterday 
about Chen, how Chen felt he was treated, or at least how much 
pressure he has received, I think I would reserve a later time 
to share. But the bottom line is, Chen told me yesterday, 
``Both my wife and I feel endangered. We are left alone. We do 
not have anybody present with us. Even as late as 9 o'clock, 
our six-year-old baby girl was crying for food.'' They were 
suffering starvation the first night after their so-called 
guaranteed freedom.
    After somebody called the U.S. Embassy apparently and the 
somebody intervened with the hospital, and they were given some 
food. You can read that account and a very detailed description 
written by Dr. Teng Biao, one of Chen's close friends, from his 
conversation over the phone about what had really happened 
during that night about their starvation.
    Second, I want to emphasize that Chen told me last night 
very clearly that he does not feel safe over there. He wants 
the United States to help him and his family to come out of 
China. Of course he did not use the exact words, but in Chinese 
it's called seeking asylum or something like that in that 
nature.
    Remember, he is still in China and his wife was not even 
allowed to walk out of the hospital. None of Chen's friends, 
human rights lawyers, human rights defenders, have been allowed 
so far to visit Chen. Some of them even showed up at the 
hospital and they were not even allowed to come close. So the 
hospital room that Chen and his family members were staying in 
became essentially another Dongshigu village, just in a 
different forum this time, in the capital city of China.
    So I would call upon the U.S. Government, especially, I 
think, Chen specifically requested me again--you talk about his 
request to have a phone conversation with you. Last night, he 
specifically requested again and said he wanted to talk with 
Congressman Chris Smith. Unfortunately, this morning, a moment 
ago when we tried, the phone was powered off. So we don't know 
what happened. He at least promised me he would keep it on if 
possible for a conversation with you today.
    I think, Secretary Clinton, this is the moment, I think, to 
deliver what you have promised, what you have repeatedly said 
in the past two years. She wants to see Chen and his family 
with freedom and safety. As you are visiting and dialoguing 
with your counterparts in China, this is the moment to deliver. 
I think Chen specifically made that appeal to Secretary Clinton 
to help negotiate, I think to reengage with the Chinese 
Government, to allow them to have a safe existence. So that's 
his appeal.
    I want to leave the rest of the time for questions. Thank 
you very much.
    Chairman Smith. Pastor Fu, thank you very much for that 
incredibly enlightening and passionate testimony.
    I'd like to now ask Dr. Richardson for her comments.
    [The prepared statement of Mr. Fu appears in the appendix.]

 STATEMENT OF SOPHIE RICHARDSON, CHINA DIRECTOR, HUMAN RIGHTS 
                             WATCH

    Ms. Richardson. Mr. Smith, Mr. Wolf, thank you very much 
for having this hearing this afternoon and for your 
extraordinary, tenacious leadership on these issues. I think 
it's not an accident that Chen wanted to speak to you in 
particular.
    I want to start with one premise, which is that if the 
Chinese Government was really serious about its commitments to 
human rights and the rule of law we wouldn't be having these 
conversations again, and again, and again, which is not to 
suggest that we aren't all happy to have this discussion with 
you.
    But I think the fact that 30 years into reform and opening 
up and 20 years after Tiananmen, that we are still discussing 
these issues, is a powerful statement about the choices the 
Chinese leadership has made with respect to political reform 
and the rule of law.
    Just to paint a broad picture, year in and year out we 
continue to document gross abuses: Use of the death penalty, 
forced disappearances, abuses of ethnic minorities, 
restrictions on the freedoms of religion, association, and 
assembly.
    I think Chen's case, in particular, highlights some of the 
worst abuses that we have seen in recent years. Those include a 
naked disregard for the law, both with respect to Chen's 
efforts to challenge illegal practices and to hold people to 
account, but also with respect to the treatment of him.
    There certainly are gross problems with respect to 
arbitrary detention, which, as we've discussed, often extends 
to family members, including very young children. I find this 
aspect of the story in particular outrageous, that children 
should be subject to this kind of treatment.
    Torture and mistreatment in detention. We have heard 
credible evidence of physical violence against Chen, his wife, 
other family members, other associates, and restrictions on the 
freedom of expression, ranging from his ability to communicate 
with other people, people's ability to go and see him or report 
on what's happening to him.
    And let's bear in mind that all of this has been in 
retaliation for work and activities that were entirely 
consistent with domestic and international law. I think that's 
a very important point to remember, that Chen had done nothing 
illegal. I think the bottom line is that all activists in 
China, regardless of the issue that they're working on, remain 
at extraordinary risks at all times.
    With respect to Chen in particular, I think obviously much 
depends on clarity about what he and his family want. If indeed 
they do want to leave, which seems to be the view now, I think 
it is incumbent on the U.S. Government to insist on access to 
him. We are very disturbed by the reports in the Washington 
Post today that U.S. officials have not been able to have any 
access to him for about 24 hours now.
    I don't see any particular reason why Secretary Clinton, 
Secretary Geithner, Ambassador Locke, and other senior U.S. 
Government officials who are in Beijing at the moment can't get 
in the car and go to the hospital and insist on access to him.
    If he does opt to stay, I think there is an obligation on 
the U.S. Government to mount a monitoring effort with respect 
to Chen's treatment and his family members' treatment of a kind 
that they've never imagined before. There will have to be a new 
Chen Guangcheng detail at the U.S. Embassy.
    But in the broader picture with respect to other activists 
and activism in general in China, I think there is an enormous 
responsibility on the U.S. Government, on activists, on other 
like-minded governments to watch incredibly closely--not just 
over the next few days but over weeks and months and years--to 
monitor what happens to other activists who will suffer from 
further retribution by virtue of this incident in particular.
    We know that the machine has already swung into action to 
place restrictions on people, some who are involved in this 
case, some who have nothing to do with this case. I think it 
would be a tremendous tragedy if the heightened awareness of 
human rights abuses in China were to fade when the spotlight 
shifts elsewhere after Secretary Clinton leaves town. That is, 
I think, all of our collective responsibility in the near and 
the longer term future.
    Thanks.
    Chairman Smith. Dr. Richardson, thank you very much.
    I would like to now call on Mr. Kumar.

  STATEMENT OF T. KUMAR, DIRECTOR FOR INTERNATIONAL ADVOCACY, 
                   AMNESTY INTERNATIONAL USA

    Mr. Kumar. Thank you very much, Chairman Smith and 
Congressman Wolf. Amnesty International is pleased to testify 
at this important and timely hearing. We also want to recognize 
both your leadership in promoting and protecting human rights 
not only in China, but around the world. Thank you for your 
job, for both of you.
    Today, what is happening in China is not about this 
particular individual, Chen Guangcheng. This is about a system 
in China which is geared toward abusing its own citizens with 
total impunity.
    We started working on Chen's case when he was initially 
arrested years ago for documenting abuses in the context of the 
one-child policy. We adopted him as a prisoner of conscience. 
The reason was because our research showed that he did not use 
violence or advocate violence, he was just documenting abuses 
and trying to publicize these abuses.
    So he was imprisoned for more than four years. During this 
time he was tortured and abused. When he was released, everyone 
thought that the saga was going to come to an end. But that is 
not the case. Like many other cases in China he was illegally 
detained in his house and also again abused, not only him but 
his family as well.
    So what happened about two weeks ago, less than two weeks 
ago, was that he escaped from the illegal detention and he 
ended up coming to the U.S. Embassy. Now the situation is not 
clear, but one thing we know from the U.S. administration 
officials who made public statements is that China gave certain 
commitments and there was an agreement between China and the 
United States about the treatment of Mr. Chen.
    I don't know the full context of that agreement. It is time 
that the U.S. administration make it public, whether there were 
any signatures involved by the Chinese authorities; the real 
official document should be brought in. I urge the Commission 
to request that official agreement between the U.S. Government 
and China on Chen's treatment.
    In the context of the strength of the agreement, Chen 
agreed, even though there were reports that there were some 
other issues involved which Amnesty International had 
difficulty confirming, and then he went to the hospital for 
treatment.
    Suddenly, what we are hearing is that the same agreement 
that the United States and China agreed upon has been violated. 
Now he is asking, at least according to the media reports, that 
he wants asylum for him, as well as his family, to the United 
States.
    The opportunity that is there for his case is rare for 
political prisoners. Secretary Clinton is there. Senior 
government officials, U.S. Government officials, are there. So 
if senior U.S. Government officials cannot solve this issue, 
the United States is having a direct relevance because of the 
agreement that was signed.
    We have to ask the question, what leverage can the United 
States exert or what interest can they do to get improvement in 
human rights issues in China. That brought up a bigger question 
about human rights in China and the U.S. engagement in 
policing.
    Amnesty International is concerned that even though there 
are some meaningful improvements that were taken by different 
administrations, the current dialogue that is taking place, 
that is Security and Economic Dialogue, is not taking human 
rights as a serious and equal partner to the dialogue.
    Even the basic things, like renaming the Security and 
Economic Dialogue into Security, Economic, and Human Rights 
Dialogue, there is resistance. We don't know where the 
resistance comes from, the administration here or from the 
Chinese.
    So if they can't even rename the Security and Economic 
Dialogue as the Security, Economic, and Human Rights Dialogue, 
there are serious questions.
    If there is an agreement to bring him to asylum, what 
steps? Our fear is that when Secretary Clinton leaves, the 
interest will wane down, which we were told by the senior 
administration officials that that's not the case.
    But to make it clear, let Secretary Clinton take a firm 
stand and make a statement about this case. Not only is this a 
human rights case, but this case is also directly involving the 
United States in a political case where we had an agreement.
    So let the United States stand up. Let Secretary Clinton, 
while she's in China, stand up and make a clear statement. This 
will set the tone for future U.S.-China agreements, or even 
China policy on promoting and protecting human rights in China.
    Thank you again for inviting Amnesty International.
    Chairman Smith. Thank you very much, Mr. Kumar.
    I would like to now, if I could go from left to right--your 
right to left--Reggie Littlejohn.

   STATEMENT OF REGGIE LITTLEJOHN, PRESIDENT, WOMEN'S RIGHTS 
                       WITHOUT FRONTIERS

    Ms. Littlejohn. Thank you so much, Congressman Smith, 
Congressman Wolf, for inviting me to this. I have been asked to 
testify as to two things. One, is what is the underlying issue 
that got Chen Guangcheng detained, and the other one is, what 
about those who helped him, in particular Pearl, also known as 
He Peirong.
    Something that has been left out of the discussion in a lot 
of mainstream media is, why is it that Chen Guangcheng has been 
the subject of such intense persecution? What is it that set 
off the Chinese Communist Party against him? It's the fact that 
he was the one person in China who dared to stand up against 
the one-child policy.
    He and his wife exposed the fact that there were an 
estimated 130,000 forced abortions and forced sterilizations in 
Linyi City in one year, in 2005, and it was that act that got 
him detained. He spent four years and three months in jail, 
during which time he was tortured, denied medical treatment, 
and now has been under house arrest.
    So Women's Rights Without Frontiers obtained the field 
notes of Chen Guangcheng. We have the cases that he was working 
on when he was detained in 2006. We released those at a 
congressional hearing right here on December 6, 2011. It is 
called the Chen Guangcheng Report. It is 35 pages of case after 
case of the most horrific human rights abuses that you can 
imagine.
    For example, a woman who was forcibly aborted and 
sterilized at seven months, villagers that sleep in fields to 
evade family planning officials, family planning officials who 
broke a broom--three brooms--over the head of a man whose 
children were suspected of having violated family planning law.
    Family planning officials forced a grandmother and her 
brother to beat each other because someone in their family had 
violated the family planning birth limit, and then finally the 
use of quota systems and the practice of implication, the 
detention of family members, in which if one person in a family 
is suspected of having violated the one-child policy either by 
being pregnant or missing their cervical check-up--women are 
required to have cervical check-ups between every two and every 
six months, depending on where they live in China--their entire 
family can get dragged in.
    There is one account in the Chen Guangcheng Report of a 
person's extended family--their parents, their grandparents, 
their aunts, their uncles, their cousins--all being dragged in 
and tortured and fined 100 yuan a day for what they call family 
planning learning class tuition.
    So it's clear from the Chen Guangcheng Report that the 
spirit of the Red Guard is living on in the family planning 
police today, and this is the issue for which he gave his life 
to China. He gave his life to protect the women of China from 
forced abortion, forced sterilization, and infanticide.
    And then the other implications that come out of the one-
child policy are gendercide, the sex selective abortion of baby 
girls. Because of this, there's an estimated 37 million more 
men than women living in China today, and that in turn is 
driving human trafficking and sexual slavery not only within 
China, but the surrounding countries as well.
    Then, in addition, China has the highest female suicide 
rate of any country in the world. Approximately 500 women a day 
kill themselves in China. There is untold suffering in China 
because of the one-child policy, and this is the issue that 
Chen had the courage to confront. This is also, I think, the 
central policy of the Chinese Communist Party, which is why 
they have targeted him so fiercely.
    Now, some people might ask whether Chen Guangcheng's report 
on Linyi in 2005--whether these things are still happening, and 
they are still happening. Just about three weeks ago there was 
a report, a photograph that came across on Weibo, the Chinese 
equivalent of Twitter, where a woman in Linyi had been forcibly 
aborted of a baby at the ninth month.
    The baby was born alive, was crying, and the family 
planning officials took that baby and dumped it in a bucket and 
drowned it. There was a picture of the drowned baby in a bucket 
and that was circulated on Weibo and created outrage.
    I would also like to say, something that people don't 
realize is that the coercive birth limit is not only violent 
against women, but men as well. There are many instances in the 
Chen Guangcheng Report where men were also detained and 
tortured. In one instance there was a farmer who had committed 
suicide because of the intense oppression.
    In another report that I have submitted in Congress there's 
this man named Xin Liu, who in 2008, his wife did have a second 
child. So the family planning police came to get the fine from 
them. He said, please, just take the fine, don't be violent 
about it, be peaceful about it. They refused to do that. They 
instead started a fight and they broke a bottle over his head. 
So here's a picture of him with his temple that was crushed 
when the bottle was broken over his head, and he is now 
permanently disabled.
    The second issue I was asked to address was the persecution 
of He Peirong, whose pen name is Pearl. She reached out to me 
about six months ago. She was running a Free Chen Guangcheng 
campaign, a sunglasses campaign, and wanted me to do it outside 
of China. She was doing it inside of China. She and I started 
emailing each other. We felt sort of that we were sisters in 
this cause of freeing Chen Guangcheng.
    She is the one who, when Chen Guangcheng made his great 
escape, drove him from Dongshigu village to Beijing.
    So the plan for his escape worked so well that he was not 
discovered to have been missing for four days. Then on the day 
that he was discovered missing, she and I Skyped on and off all 
night long. She was alone, she was afraid. She was afraid for 
Chen, she was afraid for his family. She was also afraid for 
herself. Then at around 5 o'clock in the morning when I tried 
to Skype her one last time, there was silence. She didn't 
answer. I found out later that she had been detained.
    I am very concerned about Pearl. I am concerned that she 
may be tortured because she was the head of this whole network 
that was to free Chen. We know many instances in which key 
activists have been tortured in order for the Chinese Communist 
Party to try to extract from them who the other people were in 
their network.
    So I would urge that, in these discussions about Chen 
Guangcheng, that they include Pearl at all times. I really 
appreciate the way that Congressman Smith and Congressman Wolf 
have been including her in the discussions, and so Chen 
Guangcheng, I'm sure, will not feel free until his main 
supporter from the outside, He Peirong, is also free.
    Thank you.
    Chairman Smith. Ms. Littlejohn, thank you so very much for 
that testimony and for bringing attention to the underlying 
cause of why the full weight of the Chinese Government came 
down upon Chen and his wife, and that is the forced abortion 
issue, and for reminding the world about He Peirong and the 
concern that we have to have for her well-being.
    I'd like to now yield to Mr. Horowitz.

 STATEMENT OF MICHAEL HOROWITZ, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Horowitz. Thank you, Mr. Chairman.
    Last month I was arrested in a respectful, non-disruptive 
demonstration on behalf of what Bob Fu and I called the ``China 
Six,'' and of course Chen Guangcheng was one of them. When the 
first news came out I sent an email to Bob and said, ``We're 
down to the China Five.'' He then sent back an email to me 
saying, ``Soon we'll be at the China Zero.''
    Mr. Chairman, we're back at the China Six, and worse than 
we were a few days ago. Part of it was the failure, as Mr. Wolf 
indicated at the hearing of the Commission when the incoming 
President of China was here, to send a clear signal that the 
rights of these heroic dissidents represent priority interests 
of American human rights and American foreign policy. So part 
of what we're witnessing are the fruits of the Xi visit to the 
United States.
    The real question is, how could this have happened? I have 
often thought and said to you, Mr. Chairman, that one of the 
great things we could do in the pursuit of American interests 
would be to replace the State Department with the AFL-CIO 
because there is an issue here of bargaining skill. Anybody at 
the Teamsters Union would understand, would have flunked every 
one of these people who were bargaining for the life and 
freedom of world hero Chen Guangcheng.
    Let me just give, very quickly, three indications of what I 
mean. The first thing a skilled bargainer would do is welcome 
this man to the Embassy and tell him he can stay as long as he 
wants, and would do so to take care of one's client, but much 
more importantly to send a signal to China that time is on our 
side.
    Mr. Chairman, when I was bargaining for the Fire Officers 
Union of New York City I always understood one thing: If the 
other guy needed to sign the deal before I did he was in my 
pocket, and the Chinese understood that as clearly as possible. 
We seemed rushed to close a deal and the Chinese took advantage 
of that. So, an ``F'' in Bargaining 101 for the State 
Department on that score.
    Second, you don't accept verbal promises. You get some 
action, some good-faith action, before you close a deal and 
turn over your house or whatever it is you are bargaining 
about, or cut the deal. So the first principle that anybody, 
any union leader would say to the Chinese would be: ``Okay, you 
want to do a deal? The first thing is, bring Chen's wife and 
child here to the Embassy. We don't even talk until she is 
there with him.'' That could have been done.
    Then the final and I think the most critical thing, Mr. 
Chairman, was not only to understand the risks that you and 
your client run, but to put yourself in the mind of the other 
side to understand the risks that they run. Anybody from any 
labor union would have said to the Chinese: ``Listen, we've got 
all the time in the world. The world is watching what's going 
on. Chen Guangcheng has become the face of China to the people 
of the United States and the rest of the world. You spend all 
this money building goodwill in the West and building goodwill 
in the United States. Every minute that this man, his family, 
and the people who rescued him are at risk is destroying 
whatever it is that you've built. The leverage you have from 
the American business community will be trumped if you continue 
to let this case fester. So, hey, as long as it takes, it 
takes, but he's here, he's comfortable.''
    That's what happened with the Pentecostals in the U.S. 
Embassy during the Reagan administration. Instead, the Chen 
negotiators were so focused on our needs, our risks, rather 
than the needs and risks and problems of the Chinese, that they 
just rushed the negotiation.
    Mr. Chairman, even if I didn't care one iota for human 
rights in China or for Chen, and all I cared about was the 
agenda that Secretary Geithner was to pursue during his visit, 
I would be emphasizing the Chen Guangcheng case because it put 
China and not the United States on the defensive. It's not our 
weakness, it's their weakness that the Chen case created.
    Ronald Reagan understood that when he dealt with the 
Pentecostals in the U.S. Embassy. As George Schultz had said, 
every time the Russians wanted to negotiate nuclear weapons 
policies Reagan would say, well, what are you doing about this 
dissident and that dissident, and when are they getting out?
    They began to understand that these dissidents were not in 
the way of American foreign policy but that they were America's 
foreign policy. Guess what? Ronald Reagan was able to negotiate 
a better deal on weapons, on ruble-dollar relations, and so 
forth--and able to ensure the freedom of Jewish refuseniks and 
Pentecostal victims of the former Soviet Union.
    Again, if you focus on your weaknesses and don't understand 
the vulnerability of the other side--you'd get fired in your 
first week at the Teamsters Union. Yet such people who had been 
negotiating hold the life and the safety and the security of 
heroes like Chen in their hands. How sad it makes me at the 
sheer, utter incompetence of the people at the State Department 
who purported to bargain on Chen's behalf.
    Now, what do we do to protect him now? Mr. Chairman, you 
have that chart up there, and it's an extraordinary chart. As 
soon as Chen's escape happened, the Chinese created blocks on 
the Internet, the great highway of freedom; the Chinese 
Government understands the importance of Internet freedom and I 
wish we did much better than we do.
    Today, if you type in the word ``Chen'' on an Internet 
search in China, it gets blocked. If you type in the word 
``blind man'' in China, you get blocked. The problem with the 
stories about this matter, and this was in yesterday's Wall 
Street Journal that listed the words blocked on the Internet in 
China, is that they convey a premise and a take-away message to 
the American people that China has the capacity to control what 
people in China get to see on the Internet.
    Mr. Chairman, as you know and as Mr. Wolf more than perhaps 
any Member of Congress knows, that is true only because of our 
horrible, misguided policies--because the State Department has 
failed to honor congressional intent in giving appropriated 
funds to groups with a field-tested capacity to bypass the 
Internet firewall systems of China, of Iran, of all the world's 
dictatorships.
    There is $30 million now sitting in State Department 
accounts that was appropriated years ago to tear down Internet 
firewalls that they haven't spent. There's a Board of 
Broadcasting Governors that's sitting there with $700, $800 
million that has not sought to reprogram, as they easily could 
and should have done, just 10 percent of their appropriation 
for R&D into firewall circumvention and for giving money to 
successful, field-tested programs so that they don't crash when 
2 million users a day access their system, and so they could 
allow 50 million users a day to access the system.
    We have it in our capacity, Mr. Chairman, to allow 50 
million Chinese at any given second to search the word ``blind 
man'' anytime they want no matter what China's Internet Golden 
Shield bureaucracy says, and we haven't done it. We haven't 
done it in violation of clear congressional intent and we 
haven't done it because we have not pushed the bureaucracy at 
the State Department, pushed the Board of Broadcasting 
Governors, to do it.
    There is one possible clue for this. When asked why one of 
the most successful Internet firewall circumvention programs 
has not received significant support by the Washington Post, 
the response, Mr. Chairman--and Mr. Wolf knows this--the reason 
given to the Post was because if we did so China would ``go 
ballistic.'' So said a senior administration official to the 
Washington Post.
    So, Mr. Chairman, the way to achieve the protection of Chen 
Guangcheng and all of the others, is sunlight, information. All 
the verbal promises in the world given by China are meaningless 
as long as Chen and others like him can be isolated so that 
nobody knows what happens to him. As long as nobody knows, as 
long as the word ``Chen'' and ``blind man'' can't be searched 
by people in China, he and others like him will be persecuted 
as he had before. He will be isolated. His spirit will be 
taken.
    But let's create a world in which one microsecond after 
Chen Guangcheng's wife is beaten up, the word goes out on the 
Internet and everybody in China knows it. We can make this 
happen, Mr. Chairman, with appropriated funds sitting in State 
Department accounts and we can make this happen in two to three 
months.
    So I hope that Internet freedom in China will be one of the 
things that comes out of this case, and if it does I think Chen 
will regard what he's going through as worth every second and 
every pain he endures. Let's have come out of his case a 
determination on the part of Congress to get this 
administration to tear down the Internet firewalls which are 
the real source of power and protection of the regime and the 
real sources of the regime's ability to isolate, control, and 
persecute its people.
    I close by saying what Hu Jintao said, and I think we ought 
to take a clue from him. He said the stability of the Socialist 
State is dependent on our ability to ``purify the Internet.'' 
We have it within our means, so that this cannot be done by the 
Chinese Government. We have it within our ability so that 
YouTube can broadcast to 50 million people in China and the 
rest of the world within 10 minutes of the time persecution 
happens, with the information received in China and elsewhere 
on cell phones as well as computers. We can make the Internet 
``impute'' by making it a source of immediate information when 
further torture or isolation of Chen Guangcheng or others like 
him takes place.
    So, let's honor this man and protect this man by tearing 
down the Internet firewalls with priority determination. If we 
do that, all of his suffering will not have been in vain no 
matter how his case turns out. Thank you, Mr. Chairman.
    Chairman Smith. Mr. Horowitz, thank you very much for your 
testimony and your work. It is extraordinary.
    I'd like to now introduce our next panelist, Cao Yaxue. If 
you could proceed. Thank you again for being here.

     STATEMENT OF CAO YAXUE, HUMAN RIGHTS ADVOCATE; BLOGGER

    Ms. Cao. Thank you, Representative Smith, and thank you 
Representative Wolf, for having this hearing and for giving me 
this opportunity to speak on what I know about Chen 
Guangcheng's case.
    I am the person, on last Friday afternoon around 1:30, who 
was on Twitter and I had been following--I've been active on 
Twitter because I work at home. I saw a Tweet. Somebody Tweeted 
from China. Somebody Tweeted something they found on the 
Chinese Weibo, the Chinese microblog, that Chen Guangcheng's 
nephew slashed local officials and thugs with two knives, and 
now he's on the run in the field. That Tweet had a number with 
it.
    So without hesitation, I grabbed the phone and I called. 
When I did that, I really didn't expect to reach him because I 
thought, well, I have lived here long enough, I thought, well, 
the police would have taken him already by now or he won't 
answer without knowing the source of the caller.
    But I found him. I found an agitated, scared young man. 
Well, he's in his early 30s, a young father. So I talked to 
him. He told me what happened on that day. In China time, that 
was the night of the day when the guards and the local 
authorities found Chen Guangcheng missing, last Thursday.
    So he told me everything. I said, hold on. Let me get my 
recorder. I want you to speak on record and I want to get your 
words, with your permission, as quickly as possible online and 
that's what I did. I did just that. I recorded his message. He 
told me the entire story, what he knew about that day. Within 
hours, I put it on the Web site called the Free Chen Guangcheng 
Web site, which I maintain with a group of friends, volunteers. 
We are all doing this on our own.
    I put the recording there. Within 15 hours, I put a Chinese 
and English transcription of the conversation and I forwarded 
it to all the media outlets I could find. So that's why the 
nephew's story is so quickly on the pages of the international 
news, otherwise it would still be hearsay.
    That said, I want to tell the hearing what happened after 
the conversation. Now, after the conversation, the next day, 
also from Twitter, I found out that the lawyer, through his 
wife, was able to find him. He was still on the run. That night 
when I talked to him he was already--he called immediately two 
police bureaus and no police were coming. He was surrendering 
himself but no authorities came to take him. Then he was still 
at large.
    So through his wife, his lawyer--six lawyers quickly formed 
a team. One of the lawyers in the province contacted him and 
was able to speak to him. He said, ``I was scared.'' At the 
time he was away from the immediate area. At this point he was 
on the run. So right now we don't have any words from the 
Chinese authorities as to where this young man is, what 
happened to him, is he in police custody?
    Isn't it the government's responsibility to know that, to 
find him? For crying out loud, he surrendered himself. He's 
innocent, but he did call. So what happened to this young man? 
He feared for his life. He told his lawyer, a black car has 
been following him all around. He said he is less fearful to be 
in police custody than being caught by a bunch of thugs, 
because he witnessed how his uncle and his uncle's family were 
beaten before. Also, from the Chinese authorities there is a 
statement, there is a response.
    The second day after Chen Guangcheng disappeared, the Yinan 
county, that is one of the nine counties of Linyi city, the 
Yinan county's Web site--official Web site--posted a statement, 
two sentences, two or three sentences, saying that Chen Kegui, 
so and so, Chen Kegui, slashed our officials with knives and is 
on the run for fearing his crimes. That's the entirety of the 
statement, and we are trying to apprehend him.
    Now, that statement made no mention of Chen Guangcheng and 
it made no mention of why this man, a good man so far, innocent 
man so far, slashed a whole bunch of authorities, Party cadets. 
No. That's the Chinese Government. That's the statement.
    So from a reliable source that I think is based in the 
United States, the father--oh--the young man told me that his 
father, who is the eldest brother of Chen Guangcheng, the thugs 
took him away that night. The knife slashing happened after his 
father--in other words, the brother of Chen Guangcheng--was 
taken away.
    So, so far what we know is at least Chen Guangcheng's 
eldest brother, Chen Guangcheng's sister-in-law, Chen 
Guangcheng's cousin, and the son of this cousin are in the 
hands of the authorities. Okay. That is, so far, what we know.
    Now, I want to quickly talk about the state that I found 
this young man was in. Eleven times--I personally counted--he 
mentioned the word ``law.'' In turn, he was appealing to the 
law to defend him. Another moment, he was desperate. He was 
sobbing, he was shaking, that he did not for a moment believe 
the law would defend him. That was the thing.
    The conversation is long. If anybody is interested, they 
can go to my Web site, which is www.seeingredinchina.com, to 
read the complete transcription. But there is one point I want 
to emphasize. He said, ``I love my motherland, but look at what 
she gives me.'' He also said, at the very end of our 
conversation, ``At the bottom of the society, all is so 
tragic.''
    Now, I also want to quickly give you my impression, because 
after I talked to him for several days I couldn't shake off his 
image and the conversation we had. Now, on the one hand he's 
just a villager. He is what the Chinese official propaganda 
would like to call ``low quality people, not suitable for 
democracy.'' But I find this young man to be reasonable, good-
hearted, and absolutely intelligent, speaking coherently under 
such a difficult situation.
    In other words, he represented the goodness of China just 
like his uncle. So on the one hand you have these good people 
as represented by Chen Guangcheng, by the nephew. On the other 
hand, you have the thuggish government. Where are we? I am an 
American. When I say ``we,'' I mean the United States. Where 
are we? Who are we standing with?
    Now, if you allow me, I am not listed to speak about this, 
but I want to pick up on what Dr. Richardson and Mr. Horowitz 
said, because I have been following Twitter's Chinese 
community. These are people who are living in China but have 
the technical savvyness to climb the wall and are very active 
on Twitter.
    I want to give the hearing a little bit of an idea--I want 
you to know because it's of the utmost importance to know what 
the reactions are after Chen Guangcheng left the Embassy: 
Overwhelming disbelief at how this could have happened; 
overwhelming anger, and a sense of betrayal.
    Now, for six days, ``mei guo da shi guan,'' five characters 
in Chinese meaning U.S. Embassy. Those five characters, for six 
days, were magic words for many Chinese. China is a big country 
and there is one island, one safe haven called the U.S. 
Embassy, we are so overjoyed that he got there, it was a 
miracle, miraculous. Yet, we dropped the ball so terribly. We 
allowed this to happen. I'm not going to comment on how it 
happened because others already spoke very eloquently.
    Now, we also have to remember and have to understand that 
what Chen Guangcheng represents for so many Chinese, strangers, 
Chinese netizens who went to the village, got beaten, got 
robbed, lost their jobs, lost their houses afterward, braving 
such harsh punishment for doing nothing wrong. Why? Because 
they love Chen Guangcheng. Why do they love Chen Guangcheng? 
Because Chen Guangcheng, as a blind man, is a source of light.
    There are no poetic words, but literally, he is a source of 
light. He represents the goodness and the bravery that are both 
in short supply in China. He lives in the poorest village. He 
didn't go to school until he was 18. He is blind. Where on 
earth did you find such a man? Where? Tell me. And he is this 
symbol.
    Now we must understand the larger picture. Now, I am an 
ordinary citizen. My larger picture might not be the same as 
the larger picture of our State Department officials. But the 
one piece I saw in this larger picture may very well be the 
most significant piece, which is that China's pro-democracy 
citizens, whether they are outspoken or not, look upon the 
United States for support.
    If we failed Chen Guangcheng, it deals a horrible blow for 
this population that is braving persecution for change in China 
for the better, and that we will suffer the pain for years and 
years to come. We will lose all credibility.
    I mean, may I read a few quotes I took from Twitter? Number 
one, very straightforward: ``The U.S. betrayed us.'' Number 
two: ``Obama has no teeth.'' Number three: ``This is so 
recklessly cynical.'' Number four: ``Now that we can't even 
trust the U.S. Embassy, I can't tell you how angry I am.'' 
Number five: ``In 2012, the entire human race is unable to 
rescue a blind man.'' Number six: ``After I read the report by 
CNN that the whole world is talking about this man, only the 
Chinese themselves don't know what's going on. I am so saddened 
by this fact.''
    The last quote is by the very well-known Canadian activist 
Sheng Xue. You might know the name. She said, ``The Chen 
Guangcheng case is a challenge to the U.S. ideals, also a test 
of American strength. If the United States gives up on 
protecting Chen Guangcheng, it amounts to giving up its 
leadership role in the world. Down the road, in the face of 
terrorism and a dictatorship, the U.S. will never be able to 
stand straight up again.'' This is by Sheng Xue. She is based 
in Canada. She is an activist and also a journalist.
    That's what I'm here to say and I'm happy to have said it. 
Thank you very much for this opportunity. Thank you.
    Chairman Smith. Ms. Cao, thank you very much for your 
testimony. It is almost numbing to hear you say what other 
Chinese individuals are saying online. So, that should be a 
wake-up call in and of itself to the U.S. Government, and 
especially to this administration.
    I'd like to now yield, to such time as she will consume, 
Wang Xuezhen.

        STATEMENT OF WANG XUEZHEN, HUMAN RIGHTS ADVOCATE

    Ms. Wang. I'm very sorry, but I can't speak English so I'll 
be speaking Chinese through an interpreter.
    Ladies and gentlemen, good afternoon. I myself am here as a 
supporter of Chen Guangcheng and I hope I have helped him and 
his family, and I hope through telling you all a little bit 
about what has happened to me myself in the process you will be 
able to get a real feeling for what he has been through in the 
past, as well as an accurate as possible a picture of what's in 
store for him in the future.
    On August 26, 2011, I went to Linyi to help Chen 
Guangcheng's daughter, Chen Kesi, be able to attend the school 
that she should have been attending. I went with some other 
people. This trip was very much in goodwill and we wanted to 
show the local government that we were coming in peace and 
goodwill.
    For that reason we decided to stay at a local spa which was 
open and not secret, and also it was far from Yinan county so 
they could see us. They were even able to watch us while we 
were sleeping. We wanted them to be very clear that the only 
reason we were there this time, the sole goal and purpose of 
our mission, was to let Chen Kesi, his daughter, be able to 
attend this school.
    We didn't really get any good results. The only thing that 
happened is, even while we were asleep, there were seven to 
eight big, strong guys that were watching us all the time, and 
there were several cars parked outside watching us all the 
time. We didn't make any progress in getting her to attend the 
school that she was supposed to be attending. As a matter of 
fact, when we went to try to visit the family we were met with 
violence and they pulled us out of the car.
    That same year, September 19, I went with an Israeli 
journalist to complain. We were going to Jinan, the provincial 
capital, to complain about the brutal treatment that we'd 
received in Yinan. Actually, also, the night before that there 
were two women who also tried to go and visit and they were 
robbed and beaten, their heads were bagged, they were thrown in 
cars, taken to another place outside of that city, thrown in 
the woods. Other than the government giving a warning regarding 
this, there was no explanation at all for what they did.
    On September 20, we went to the house of the fourth son in 
Chen Guangcheng's family, so the brother that was just older 
than him in the pecking order. We went there to ask whether or 
not Chen Guangcheng's daughter had successfully been able to go 
to the school that she was supposed to be attending.
    As soon as we arrived, six people rushed in. We were not 
able to carry out the conversation at all. Instead, what we had 
to do was leave the school supplies, which we were bringing 
there. We left and we were followed by their car.
    On September 21, we decided that one person should remain 
in the motel that we were staying at and the rest of us would 
go to the school to see if there was any progress, but our car 
was stopped. There were three men on motorcycles who were 
waiting for us, so we left. We didn't go into the school. We 
hadn't left for very long.
    We had just left the school when we were pulled out of our 
car. As we were beaten the reporter that was with us was with 
us was ordered away and escorted away, but the rest of us were 
taken to an old empty house on the outskirts of the village. We 
were bagged, we were body searched in a very insulting and 
terrible way. We were beaten and we were taken to an old 
abandoned house.
    Then at night we were taken to the police station and 
interrogated for stealing a cow. I refused to sign the 
statement that they prepared for me and I was sent back to 
Laiyang. At 2 a.m., I was in the Laiyang police station being 
interrogated, and at 5 a.m. I was home. Then on the 21st as 
well, the person who had remained at the motel was also ordered 
away, taken back to that person's home. The political police 
stole a lot of stuff, a lot of possessions from us. I myself 
went to Linyi to report these crimes and I was there by about 
noon that day. I called some reporters. As soon as I pulled out 
the phone to call the reporters there were eight political 
police that appeared and sent me home to Laiyang.
    On October 20, a McClatchy journalist asked me to come 
there for an interview. I went to complain about the treatment 
that I'd received previously when I'd been beaten and harassed. 
When I told them all about it, the only thing was, they handed 
me a form and told me to fill out a form.
    But the whole time there were seven or eight big, strong 
guys watching me, listening to everything I was saying. Then 
after we got in the car and we hadn't even stopped--the car was 
still moving, it hadn't even stopped--in Dongshigu village, the 
reporter's assistant, the journalist's assistant, was almost 
pulled out of the car before the car had even stopped.
    On October 26, I myself and several volunteers, along with 
a British Telegraph reporter, were heading to Yinan county to 
bring the school supplies--once again, more school supplies. We 
were going to bring them to Chen Guangcheng's brother's house. 
We were followed the entire way from start to finish. Then the 
Linyi county government answered our request. They said, yes, 
you can go see him.
    So since they said we could go see him we were trying to 
get police protection and an escort for us to go, to go with 
us. They said we couldn't take our cameras and they also said 
that they wouldn't escort, and that we were crazy, and then 
they slapped me very hard in the face.
    Of course, there was no protection to speak of. We were 
kicked out of the police station. The next day, we met a 
Japanese reporter. The political police appeared once again and 
jailed us, took our clothes off, took our shoes off. They gave 
us full body searches after we were completely naked.
    I was working with a Finnish TV station, helping them to 
try to cover the situation, on November 5. That was the 
smoothest time I had ever had, trying to go and see Chen 
Guangcheng. I didn't encounter too many problems, most likely 
because we were staying in the big city of Qingdao, which is 
very far from Linyi. Also, we had taken out our cell phone 
batteries. We had taken precautions. Even though we did that, 
the Qingdao police worked through the Laiyang police to 
investigate and interrogate me.
    Then on December 2, I had arranged, with several other 
volunteers, to give out gift bags and balloons with Chen 
Guangcheng's picture on them in several major cities in the 
province of Shandong. We were in contact with each other to 
arrange this.
    Our contact itself wasn't detected, but as soon as we began 
printing the materials we were detected by technical means, by 
the technology of the police, and there was no due process 
accorded to us. They searched my house, they beat my husband. 
He and I were both detained illegally for 14 days.
    For about 10 of those days, we were in our hometown, 
Laiyang's 6-10 office, which is part of the Party Cadre School 
of the Provincial Party Commission, which is often used to put 
away Falun Gong political prisoners, and it was very dirty.
    There were four volunteers, though, who kept their 
activities up as we had planned, even after my husband and I 
had been arrested. They were also detained illegally just 
because they insisted on the balloons and the gift bags and 
doing it. Their detention also was not one that was done with 
any warrant, it was completely illegal.
    There were hundreds and hundreds of people who have been to 
see Chen Guangcheng and to show their concern for him. I myself 
should be considered one of the lucky ones. Everything that 
I've encountered is not nearly as violent I'm sure as what a 
lot of other people have encountered. What they've encountered 
is much more violent than what I've encountered. They've been 
beaten terribly, brutally. Their bones have been broken, their 
skulls have been broken.
    I've even heard the story of a 16-year-old high school kid 
who was beaten in his genitals. I myself really just have a lot 
of contact with reporters, and I am also a Catholic, so I maybe 
am not considered quite as egregious so I'm not subject to 
quite as terrible treatment as some of the others.
    So you see what happens here when you have a brutal, rogue 
regime, these brutal powers that they have and they have no 
respect for the law and they're basically stomping on people's 
rights and stomping on the laws themselves. Chen Guangcheng and 
his family, he and his wife, have suffered much, much, much 
more than I have. He himself is known all over the world for 
doing what he did, standing up to protect other people's human 
rights. Here is this father of two, right now here today, who 
is now trying very hard to protect his family. The question is, 
what should be done? How should we treat him? What should we 
do? We need to show him concrete actions.
    Thank you.
    Representative Wolf [presiding]. Well, I want to thank the 
panel. Congressman Smith just got a call and he'll be back in. 
But I want to thank the panel. I wish every Member of Congress 
could have been here to hear it.
    I have a number of questions, which I will wait to see if 
Mr. Smith comes back in. But I have a number of observations 
that I wanted to make based on the testimony. One, I personally 
want to thank the media. It's very easy, in a political 
business, to criticize the media. But if it were not for the 
media covering this story, and as the young witness was just 
referencing, every time she attempted to visit Chen there was 
somebody from the media from some country that was with her. I 
just want to thank the media.
    Also, I want to make it clear that we appreciate very much 
the bravery of the Chinese people. I would hope that they would 
know, particularly as a result of this hearing, that the 
representatives of the State Department in Beijing do not 
represent the viewpoint of the American people. There is a 
distinct difference.
    The third question I wrote down here: Is there a 
representative of the State Department here today? Is there a 
representative here? You do not have to identify yourselves. 
Will you be getting this information to Secretary Clinton as 
soon as you go back? I understand she's in China today and also 
tomorrow, is that correct? You will be doing it right after? 
Well, I appreciate that very much.
    The other thing I would say, as I was sitting there 
listening, when I think of the words of Ronald Reagan where he 
said the words in the Constitution were a covenant with the 
entire world, Congressman Smith and I were in Beijing Prison #1 
where a number of the Tiananmen Square demonstrators were. I 
think if President Reagan were the President now, what a 
difference that would be. I mean, can you imagine what would be 
said by President Reagan versus this administration?
    Last, then I will have some questions if Mr. Smith doesn't 
come back in, I have been here since 1981. I see a direct 
parallel with what is taking place today in China and the 
unraveling of the Romanian Government, the activities of the 
Chinese Government are literally parallel with Ceausescu.
    It is like they found Ceausescu's playbook, and they didn't 
realize what happened to Ceausescu and they're following his 
playbook. It's somewhat similar to what took place with regard 
to Russia before it fell.
    I wanted to ask Bob Fu the question, or if anyone here can 
sort of explain it, can anyone explain the difference between 
the comment that I heard on the news yesterday that Chen wanted 
to kiss Secretary Clinton if he could versus what he said in 
reality? Yes, ma'am. Would you--was that a translation problem 
or was that a----
    Ms. Cao. I was on Twitter, and Chen Guangcheng had a phone 
conversation with one of his closest friends. Her name is Zeng 
Jinyan. She is the wife of Hu Jia. Hu Jia is one of the most 
prominent dissidents living in Beijing. So, Chen Guangcheng and 
the wife of Hu Jia had a conversation, had a call.
    Over the phone call, when Zeng Jinyan told Chen Guangcheng 
that, ``Oh, we heard in the news that you said you wanted to 
kiss Secretary Clinton,'' Chen Guangcheng said, ``No, that's 
not what I said. I said I want to meet her.'' So now, in light 
of the past event--at the time I just thought, oh, how funny, 
how convenient, to make this mistake. I just thought, it's not 
something significant.
    Now, I also don't want to over-interpret things, but over 
the last two days this has run over in my head: kiss and see, 
how close the pronunciation is. Did they pretend not to hear 
it? I mean, I'm just asking. The Congress can ask the same 
question, but Chen Guangcheng told his friend that he didn't 
say he wants to kiss Clinton, he wanted to meet Clinton. So 
that's what she, this friend, Tweeted on Twitter.
    Representative Wolf. Now, was that comment then put out by 
Chen or was it put out by the State Department?
    Ms. Cao. No. It's--no.
    Representative Wolf. The first comment about, he would like 
to kiss the Secretary, was that put out by Chen or was that put 
out by the State Department?
    Ms. Cao. No, that's put out by the State Department and the 
media.
    Representative Wolf. By the State Department?
    Ms. Cao. Yes.
    Representative Wolf. Okay.
    Ms. Cao. And the Tweets. I can send you the very Tweet that 
clarified this confusion.
    Representative Wolf. Now, Assistant Secretary Posner called 
me yesterday morning and gave me a briefing which sounded so 
upbeat and positive and said that he was going to meet with--
that he had gone to the hospital with Chen and he was going to 
be with Chen on Thursday and on Friday. Today is Thursday. Does 
anyone know if he was with him today? Have you spoken?
    Ms. Cao. Who? Who?
    Representative Wolf. Assistant Secretary Posner.
    Ms. Cao. Oh, Assistant? I have no idea.
    Representative Wolf. He said I was with him. Went to the 
hospital with him and I would be with him on Thursday and with 
him on Friday. Nobody knows?
    Ms. Cao. No.
    Representative Wolf. Can you help me? Do you think the 
environment changed? Apparently I've heard some very positive 
things about Ambassador Locke. I was one who opposed Ambassador 
Locke's confirmation to the Ambassadorship, and I told him so 
and he knew it. But he came up to me later and said, ``I think 
you'll be proud of my activity.'' I've heard very positive 
things about Ambassador Locke.
    Do you think this went south after people came from 
Washington, that Ambassador Locke was basically trying to do 
the right thing and then when Campbell, who is a member of this 
Commission, interestingly enough, and others came out from 
Washington it began to go south and go bad?
    Does anyone have any feeling about it? Was Locke trying to 
do--and Bob Fu might have a better idea. But was Locke trying 
to do basically the right thing, and when Washington intervened 
it went poorly? Does anybody have any comment about that? Mr. 
Horowitz?
    Mr. Horowitz. I think that it was just written in the cards 
to end the way it did. I want to come back to at least my 
judgment, Congressman Wolf, that this end was predictable based 
on the sacrifice of bargaining leverage and the absolutely, 
inexcusably poor bargaining that took place on Chen 
Guangcheng's alleged behalf.
    If it turned out that some of the people in the State 
Department were pleased at the seeming outcome of their 
bargaining efforts--Michael Posner, Ambassador Locke, others--
when at the end of the bargaining all we got was a verbal 
agreement and if we indicated to China that we needed to get 
the deal wrapped up quickly and sent every signal we did have 
such a need, so much more is the pity, so much more must be the 
criticism.
    There may be cables that indicate whether there was 
goodwill, malice, or whatnot on their part, but I come back to 
the notion that anybody skilled in serious bargaining could 
have predicted the terrible outcome of a negotiation that took 
place in the way that it did.
    Representative Wolf. Ms. Richardson, you mentioned, and I 
thought it was a very positive idea--could you go into a little 
more detail about, since Secretaries Clinton and Geithner--
although personally I don't think Geithner is that interested 
in human rights and religious freedom--but can you talk about 
the merit of both Secretary Clinton and Secretary Geithner 
going directly and involving themselves personally, and even 
going to the hospital to visit Chen? Can you tell us why you 
think that would be important and how that would be helpful? I 
think it would be very helpful.
    Dr. Richardson. I think it's mostly the immediate 
circumstances and the longer term game, so to speak, in the 
sense that I think with every hour that goes by when American 
officials don't have access to Chen the stakes go up. On your 
earlier question, the Washington Post has been reporting for 
several hours that American officials haven't had access to him 
since they left the hospital.
    So I think it's a moment that requires some fairly dramatic 
action on the part of the United States to demonstrate the 
gravity of the situation and the lengths to which it's willing 
to go to try to rectify it.
    We and many others have made the point for a long time that 
unless and until a much broader spectrum of U.S. Government 
officials, even if they don't necessarily ostensibly have a 
stake in the human rights fight--and in my world that's a very 
short list of people or agencies--that the United States looks 
stronger and more coordinated if the broader the group of 
diplomats raised these issues. So I think in this particular 
moment, when a very visible gesture is likely necessary to get 
things back on the rails so to speak, that to have not just 
Secretary Clinton and not just Ambassador Locke, who obviously 
have been deeply involved in all of this, but to have a broader 
cross-section of U.S. Government officials to demonstrate the 
depth and the breadth of concern about human rights issues 
across the government. It's one way of really making that 
point.
    We've asked for years that all of the agencies that 
participate in the Strategic and Economic Dialogue [S&ED] be 
tasked with at least one human rights talking point, partly 
because you never know who's sitting on the other side of the 
table and might be slightly more receptive to that issue.
    But I also think that kind of coordination across the 
United States really registers with the Chinese side. It was 
not my sense going into this S&ED before the Chen incident 
arose--it was once again my sense, I should say, that going 
into the fourth S&ED that the United States was any more poised 
to demonstrate a broader commitment to human rights than it has 
been in the past. So I think this is a great moment to set a 
new precedent and have kind of a broader cross-section of 
diplomats turn up.
    Representative Wolf. So this is a real test for the Obama 
administration.
    Dr. Richardson. Well, I think a lot depends on what happens 
in the next 48 hours or so.
    Representative Wolf. I have written every official in the 
Obama administration--the State Department--the Trade 
Representative comes before and is funded by my subcommittee. I 
have asked them to go visit--not to worship, but to visit--a 
house church, an underground church, a Catholic church, a 
Protestant church, with the Buddhist monks, to visit.
    Not one person in the administration, not one person, has 
responded and agreed. Ambassador Kirk, who we fund in my 
committee, has refused--has refused--to go to any house church 
or to visit.
    Now, in all fairness, the Bush administration did not visit 
either. I wrote all the officials in the Bush administration 
and they did not visit. But this administration has failed and 
we will furnish for the record the letter that we have sent.
    When I get back to my office, we will call the State 
Department and ask for Secretary Clinton to go and try to see 
Chen directly.
    Has the President or the Vice President of the United 
States, President Obama or Vice President Biden, who I believe 
is trying to develop a special relationship with the Chinese, 
have they spoken out? Would it be helpful to have the President 
go to the Rose Garden and go to the press office and speak out 
forcefully with regard to this issue within the next several 
hours? Could anyone tell me? Mr. Horowitz?
    [The letter appears in the appendix.]
    Mr. Horowitz. I think talk is not going to work anymore. 
Yes, I think it would be marginally useful, but I think the 
Chinese would interpret that being as for domestic political 
consumption only. I think action is very important. I think 
there are two things in that regard. One, what Yaxue said about 
the Tweets coming out of China saying that our handling of the 
Chen case created a sign of U.S. weakness, sent a signal that 
the U.S. Embassy was no longer a bastion of hope, a symbol of 
resistance.
    The ironic part is, and I think you've made the point 
Congressman, that that will translate negatively in the 
negotiations that Secretary Geithner wants to do. It's all 
seamless, as Sophie Richardson has just made clear. If we 
project weakness and surrender on human rights, China will 
exploit that in every matter with which they deal with us. So I 
think that's the problem.
    I think the only response--I come back to what I said and 
it's something you have labored on, Mr. Wolf, more than any 
Member of Congress, but action counts. I think that there may 
be other actions, but one that I think is very clear and very 
directly related to the protection of all of the people caught 
up in this tragedy, is for the United States to openly and 
robustly mount a commitment to tear down China's Internet 
firewalls so that the kind of censorship that now takes place 
where not more than a handful of Chinese, can even type in and 
search the word ``Chen.''
    Let 20 million, 30 million Chinese type in the word 
``Chen'' and get it on their cell phones, and let's make this 
happen as we now can do it in a matter of two to three months. 
As you well know, Mr. Wolf, that's the response we should make 
to the Chen case. It will protect Chen Guangcheng and his 
family but it will also send a signal to China that we are not 
a weak country and we are not a surrendering country. Just a 
speech by the Vice President, that's politics. The Chinese will 
understand that and it will not affect them, in my judgment, at 
all.
    Representative Wolf. In the interest of Mr. Smith, I think 
what I'm going to do is to recess the hearing briefly so he can 
come back in. Let's just recess for five minutes, if we can.
    [Whereupon, at 4:01 p.m.the hearing was briefly recessed.]


                        after recess [4:06 p.m.]


    Chairman Smith [presiding]. The Commission will resume its 
sitting.
    I just want to apprise everyone that Bob Fu has made 
contact with Chen Guangcheng in his hospital room. We just had 
an interesting and, I think, enlightening conversation. But 
we're going to put him on the speaker.
    [Whereupon, Chen Guangcheng joined the hearing via 
teleconference and translation was provided by Bob Fu.]
    Mr. Chen. I want to make the request to have my freedom of 
travel guaranteed. I want to come to the United States for some 
time of rest. I have not had any rest in the past 10 years 
already. I want to meet with Secretary Clinton and I hope I can 
get more help from her. I also want to thank her face to face.
    I really fear for my other family members' lives and they 
have installed seven video cameras and even an electric fence. 
Those security officers in my house basically said they want to 
see what else Chen Guangcheng can do. So the thing that I am 
most concerned with right now is the safety of my mother, my 
brothers, and I really want to know what's going on with them. 
Thank you very much.
    Chairman Smith. Chen, thank you very much. As I indicated a 
moment ago, you have a panel of people who have just testified 
on your behalf, all of whom deeply care about you, your family, 
as well as those who helped you, including He Peirong, who are 
all desperately concerned about her whereabouts and her well-
being, your nephew, and others.
    Again, one person who just spoke, Mrs. Wang, spoke about 
her efforts to see you and how she was mistreated repeatedly, 
including strip searches. I think the word is getting out, and 
there are a number of the members of the national and 
international press here, that your case is the test, the test 
of the Chinese commitment to protect you, which they've given.
    We're very dubious about those assurances, but it's also 
the test of the United States as to whether or not human rights 
really do matter. So your plea that the Secretary of State, who 
did not meet with you in the Embassy, go to your hospital room 
and meet with you, and you, your family, and your supporters 
need to be on a plane coming to the United States for, as you 
put it, that rest that you so richly deserve.
    And Chen, very quickly before you answer, Christian Bale, 
the great actor, called one hour before this hearing to convey 
his solidarity and concern for your well-being and that of the 
rest of your family.
    Mr. Chen. I thank him very much for trying to get to 
Shandong to try to visit me. I want to also emphasize that 
after I was found missing from Shandong from my home, 
immediately my daughter's education opportunity was terminated. 
She was not allowed to go to school anymore. So, I do thank all 
the villagers who were helping me but who are also receiving 
retribution.
    I want to thank all of you for your care and for your love.
    Chairman Smith. Chen, we are all praying for you and we 
will be unceasing in our efforts to secure your freedom.
    Mr. Chen. Thank you. Thank you.
    Mr. Fu. Do you have any further questions?
    Chairman Smith. No. Thank you.
    I want to thank Bob Fu for setting up that phone call. That 
just absolutely underscores why we're here and why we will be 
unceasing.
    If I could go to some final questions. Mr. Wolf, did you 
ask your questions?
    Representative Wolf. Yes.
    Chairman Smith. Mr. Horowitz, if I could begin with you, I 
think you made an excellent point about the willingness to 
negotiate and to be the last person standing, to so speak. Your 
AFL-CIO, I think, analogy was a great one. I actually met with 
the Pentecostal Seven in 1982, when they were holed up in the 
Russian U.S. Embassy to the Soviet Union in Moscow, and we did 
stand steadfastly by them and time was not the issue. So I 
thought your point was extraordinarily well taken, if you 
wanted to elaborate on that.
    My hope is, and I know the press have all left, but I think 
it's very important that the President of the United States--I 
would appreciate your views on this--speak out from the perch 
of the White House, obviously as the leader of the free world. 
You know, it's amazing to me that, when asked about Chen 
Guangcheng, he said he had no comment.
    At the time during the horrible days of apartheid when Lech 
Walesa and Nelson Mandela, Vaklav Havel, Aung San Suu Kyi, 
Natan Sharansky, if any President, Reagan, Bush, were to be 
asked about those tremendous individuals they would launch into 
a defense of those brave men--and women, Aung San Suu Kyi--and 
yet, no comment from the President. Your thoughts on that, if 
you could.
    The concern that we all have about the ``hurry up'' 
offense, ``time,'' as you said, quoting, I think, Mick Jagger, 
``is on our side.'' We could have worked this painstakingly 
before allowing Chen, whom we just heard from, to leave the 
Embassy.
    Finally, let me just say when Wei Jingsheng was in Moscow, 
another great political leader, father of the democracy wall of 
movement in China, I met with him in the early 1990s when the 
Chinese wanted Olympics 2000, and he was such a high-value 
political prisoner they thought if they just gave him up they 
would get the Olympics. When that didn't happen, they re-
arrested him.
    But while he was out, I happened to have been in Beijing 
and had dinner with him. He made a statement that he repeated 
here when he was finally given freedom under a humanitarian 
parole scheme that ``you Americans don't understand this, that 
when you are weak, vacillating, and kowtowing, they beat us 
more in the laogai and in the Gulags. When you are tough, fair, 
transparent, you say what you mean and mean what you say, they 
beat us less.''
    He said right here--he said it to me over dinner in 
Beijing, and then he went back to further beatings, sadly, but 
then was finally let out. But right here in this very room he 
said, ``Why don't you get that? Why don't you understand that 
you need to be tough--not unreasonable, but tough? '' He said, 
``That message gets right down to the jailers' level and they 
beat us,'' because he was beaten for 15 years, as T. Kumar 
knows, having been a political prisoner for over 5 years. They 
beat for 15 years this man to the point where he almost lost 
his life just like Chen Guangcheng.
    Your thoughts on that, if you would?
    Mr. Horowitz. Well, if I can take--one, you gave the 
example of President Bush and President Reagan. I think Mr. 
Wolf's point at a prior hearing is very well taken. I would add 
Presidents Carter and Clinton. As Mr. Wolf said when the Xi 
visit took place, all four of those Presidents would have met 
with the wives of some of the political prisoners while this 
President, in the name of ``realism,'' has not done so. I think 
he doesn't understand the point that Presidents Carter, Reagan, 
Clinton, and Bush did.
    I think the greatest witness who could be here is George 
Schultz, because he constantly tells the story of how the 
Russian Ambassador came to him and said, ``You know, I can't do 
business with this Reagan. Every time I try and talk about 
serious matters he's always talking about Pentecostals and 
Refuseniks.'' Schultz then said to the Soviet Ambassador, 
``Hey, I have the same problem. He really takes this seriously. 
This is what he thinks he's supposed to be doing as President 
of the United States.''
    To make the point I've always thought critical, Ronald 
Reagan was President of the Screen Actors Guild before he 
became President. He was President of a union. He really 
understood the extraordinary power of human rights issues to 
deliver not only on human rights issues, but on every other 
issue on the table between the Soviet Union and the United 
States. I think that's a critical point.
    The second thing is, during the break, Mr. Chairman, 
somebody told me what I had not known about what you've called 
the so-called ``hurry-up offense'' that took place during the 
Chen bargaining. Someone told me that General Counsel, or 
Solicitor--I forget the formal title now of the chief lawyer at 
the State Department, Harold Koe--was quoted by the Washington 
Post when asked, why was this agreement not put in writing 
before Chen was released. He said, ``We didn't have time.''
    Now, Mr. Chairman, I hope that he will be called as a 
witness. This is a man who was dean of the Yale Law School, a 
pretty smart lawyer. That is the shallowest justification and 
rationalization for throwing Chen to the wolves that I have 
ever heard, and it is either malevolent on his part or a sign 
of incompetence. If this is true, in my judgment a respectful 
request for his immediate resignation is in order. This man, if 
this statement is true--and I do not know if it is--but if it 
is he has forfeited his right to be the chief lawyer of the 
U.S. State Department. Imagine a lawyer making that excuse when 
representing an ordinary client. My goodness, he'd get 
disbarred for not putting agreements in writing for the routine 
sale of goods and services.
    Here, Mr. Koe had the well-being of the United States, the 
reputation of the United States, and the life and the safety of 
this great hero, and did he really say ``we didn't have time'' 
to reduce the agreement to writing. That is the most rank, if 
true, act of malpractice in public life--and I've been general 
counsel of a government agency--I believe I have ever 
experienced.
    So I want to ask you, Mr. Wolf, and you, Mr. Chairman, to 
find out whether this is true, whether that quote is true. Get 
the Washington Post reporter to find out if it's true, because 
if it is, Mr. Koe has, as I say, forfeited his right absolutely 
to serve as chief lawyer for the U.S. State Department.
    Chairman Smith. Would anybody else like to comment on that?
    Ms. Littlejohn. Then the other issue that that raises is, 
what was this hard time deadline? What was driving this time 
guillotine if it wasn't Secretary Clinton's talks with the 
Chinese concerning trade? That raises the further issue of, was 
Chen a bargaining chip in all of this?
    Mr. Horowitz. I just have to say again, they did it 
backward. The fact that the Chinese were on the defensive, 
acutely, in advance of this high-level meeting is the reason 
why time was on our side, as any bargainer would know, and 
throwing away that leverage to ``help'' the Geithner agenda is 
itself inexcusably incompetent.
    So, I mean, to risk this man's life and future over the 
issue of a timetable that was actually working for us and 
against the Chinese is just so hard to live with and understand 
and accept. Especially when we now hear this man speaking from 
his hospital room, all alone, not knowing the fate of his wife, 
and with television monitors all over his room.
    Chairman Smith. You know, one point Mr. Chen made just a 
moment ago in the earlier conversation before we broadcast it, 
one of the points he made was that he was so grateful that the 
U.S. diplomats were working around the clock and without sleep, 
to which I said that can be seen another way. It can be seen 
also as, they wanted to get this done, off the table.
    As a matter of fact, in her testimony--without objection I 
would ask it be made a part of the record--Chai Ling, who is 
the head of a group called All Girls Allowed, a Tiananmen 
Square hero who was among the most wanted, makes the point 
that, ``last week, I and other advocates of freedom in China 
watched with joy as Chen Guangcheng made his bid for freedom.''
    Then she goes on and says that, ``Now do I want to believe 
that they willfully misled Chen into thinking that this was a 
possibility,'' talking about his freedom? Then she goes on to 
talk about how ``he was a fly to be swatted away before 
diplomatic talks ensued.'' Here is someone who, again, has paid 
with her freedom and has endured great risks, being very 
concerned about this ``hurry-up offense,'' this timetable 
issue.
    Yes, Mr. Horowitz?
    [The prepared statement of Ms. Chai appears in the 
appendix.]
    Mr. Horowitz. Can I make one other point, Mr. Chairman, 
about the treatment of Chen Guangcheng? One of the things you 
learn as a lawyer dealing with clients--and we're talking about 
clients here--I've dealt with clients, Mr. Chairman, who were 
facing a criminal charge. They're vulnerable people. They don't 
know what's going on. Understanding that is part of your 
responsibility to your client.
    If you're representing somebody you've got to account for 
the fact that their judgment is impaired, that there is terror 
here about one's family, about one's self. One doesn't know 
what's going on. Again, from all appearances, this time factor, 
this hurry-up business, only contributed to the ill-at-ease, 
the sense of isolation, the sense of vulnerability of Chen 
Guangcheng.
    So the first thing you do with a client who is out there, 
just terrified that the world's coming to an end and not 
knowing what's going on, is tell them, sit down, take it easy, 
have a cup of coffee, have a good night's sleep, come back, 
talk to me. That, too, is Representation 101 when you're 
dealing with someone like Chen and they've gone exactly the 
opposite, in the wrong direction in dealing with this man.
    Chairman Smith. I understand, Mr. Wolf, you wanted me to 
yield?
    Representative Wolf. Yes, Mr. Chairman. I just wanted to 
let the Commission know that I just spoke to the Secretary's 
office. I spoke to a Dan Fogerty and told them that you had 
been in conversation with Chen, and that he had made an 
official request that the Secretary visit him in the hospital. 
I asked Mr. Fogerty, if he would get that word to the Secretary 
immediately and he said he would.
    Chairman Smith. I thank you, Mr. Wolf.
    Let me ask, Ms. Wang, you've only been here in the United 
States for about a month. I think we need to underscore, you 
personally--I am not sure how many times, but several times--
undertook trips to visit with Chen Guangcheng. You talked about 
the body searches and the degrading treatment that you endured.
    I think the American public and the world, the Western 
world, frankly, and all people, need to be fully aware of just 
how vulnerable everybody else is who have aided and assisted 
Chen, which is all the more reason why, as Reggie Littlejohn 
underscored with exclamation points, He Peirong, why her 
particular case is so important. If you could just elaborate on 
what others might face, because we're very worried about you. 
Yes? Before you go, Mr. Horowitz.
    Mr. Horowitz. Just one thing. Somebody just passed this to 
me, Mr. Chairman, and I feel like I ought to read it. Again, I 
am told that there is a news story in the Washington Post or in 
one of the major papers quoting a U.S. official as explaining 
that U.S. officials ``had to leave Chen alone and leave the 
hospital because hospital officials told them that visiting 
hours were over.''
    Now, once again, Mr. Chairman, Mr. Wolf, in your 
examination of State Department officials, I hope that that, 
too, will be high up on the list--and that that official who 
said it, and any official who justified it, should have to sit 
here at this witness table and justify conduct of that kind and 
talk about leaving a man alone and vulnerable, and being 
certain that that would be the outcome, because some guy tells 
them the visiting hours are over and you've got to go, and they 
leave Chen alone in the hands of the security police with all 
of the TV camera monitors that have been installed.
    Excuse me for intervening, but I just got this message. If 
this is true, it's something that I hope this commission will 
investigate and just put any official responsible for it, if it 
is true--on the witness stand.
    Chairman Smith. Well, the concern too, Mr. Horowitz, that 
the visiting hours, at least now, seem to be permanently over. 
Chen indicated to us that the Embassy has been unable to get 
back in to his room to visit with him, to ascertain his well-
being. So, the talk of a durable solution is that he would be 
safe in China, there is no safety for any dissident in China. 
It just doesn't exist, especially with a man that----
    Mr. Horowitz. But the point is, they were there. It's a lot 
harder to get into a room after you've been kicked out of the 
room, but it's pretty darned hard for the Chinese to forcibly 
eject an American official who firmly says, this man is my 
responsibility. We gave the honor and the full faith and credit 
of the United States to see that he would be and feel 
protected, and I'm not leaving this room. Why didn't they say 
that, Mr. Chairman, is the relevant question.
    Chairman Smith. I appreciate that, Mr. Horowitz. You know, 
hospital or police station, it seems to me it's a distinction 
without a difference because the hospital is crawling with 
police.
    Ms. Wang, did you want to answer that question? Again, I 
think it's under-appreciated, perhaps by some, the risks that 
you personally undertook, coupled with the risks that you carry 
today.
    Ms. Wang. As a supporter of Chen Guangcheng, I can tell you 
that there are people from all walks of life, from all 
industries and professions that support him. A lot of people 
actually have faced greater risks and have faced greater danger 
in doing this than I have myself, for instance, government 
workers, people who work for government enterprises or other 
types of companies. Some of them, as a result, their families 
have been talked to, their families have been harassed, and 
also the government comes and checks their books and gets them 
on economic crimes, financial crimes.
    Then you get some teenagers, 16- and 17-year-olds who were 
curious and went to see Chen Guangcheng for that very reason. 
As a result, the authorities went and tried to talk a lot to 
their parents and harassed their parents. The kids were beaten. 
The parents couldn't understand what was possibly going on, but 
there was a lot of emotional damage done to the kids as a 
result of that.
    I myself am married, so my personal life hasn't been dealt 
with in such an exaggerated manner as others. For instance, you 
mentioned He Peirong. She is not married. If she had 
boyfriends, let's say, there would be a lot of personal attacks 
on her personal life. That has also been taking quite an 
emotional toll on her.
    And then there are a lot of supporters who have various 
types of, let's say, equipment or things that they use in the 
process of trying to show their support for Chen Guangcheng, 
like any equipment involved or any money that they spent in 
their efforts, the authorities basically just confiscate them. 
They take them. They've taken their assets. I haven't gone to 
verify, but I do know of cases where, for instance, cameras and 
other equipment that would have been used to document it have 
been taken away or confiscated.
    A lot of us have tried so hard and put so much effort into 
all of this, so if what we are looking at today is what it has 
all come to, I think I am not resigned to this. It's something 
that I can't accept. I really hope that the media from all over 
the world will stand up and rise and be tough in the face of 
what they're facing.
    I think he needs his freedom and we owe him this. We've 
done so much. If we've done all of this for nothing it would be 
as if we had done it in vain. What we want to know is that it 
wasn't in vain, it wasn't for nothing, it was worth it. We want 
him to be doing much better.
    Chairman Smith. Thank you. Are there any comments that our 
distinguished witnesses would like to make? Yes, please.
    Ms. Cao. One of the good things the supporters have done, 
the supporters inside China who visited or did something 
concrete, is that they quickly write accounts of their 
experiences and post them online, although very quickly, just 
as quickly, it would be deleted. But still, there have been 
dedicated groups who pass on the messages as quickly as 
possible, and then within minutes it will be re-posted 
thousands of times, that sort of thing.
    So from that, I particularly want to point out two 
occasions that left a deep impression on me, is that of two 
reporters who were employed by the Chinese state-owned media 
until they tried to visit Chen Guangcheng, or did something. 
One of the people's name was Shi Yu. He was a Xinhua News 
Agency's regional reporter based in Hunan province in the 
midland of China.
    He went to visit Chen Guangcheng as a private person, of 
course not representing his organization, and he was, just like 
many others, robbed, his money taken away, his cell phone taken 
away, he was beaten badly. He had a detailed account of how he 
was sacked with a black cloth and pulled into a van, and 
several people beat his head, his body, all over. Then they 
threw him out in the open and he managed to come back and write 
this. As soon as he returned, his organization fired him.
    There is another reporter. Now it just occurred to me it 
didn't happen because of Chen Guangcheng, it happened because 
of Ai Weiwei. Let me just quickly recount it. He is a reporter 
with the Global Times, English version. His name is Wen Tao, 
Tommy Wen. He had the guts to run a report in Global Times, a 
very tough paper, on Ai Weiwei's disappearance and then he, 
himself, was disappeared. This reporter was disappeared for 80-
plus days. Eighty-plus days without his family knowing where he 
was, those sorts of things.
    Chairman Smith. Thank you.
    Would any of you like to conclude with any final comment?
    [No response].
    Chairman Smith. Okay. Mr. Wolf?
    Representative Wolf. No.
    Chairman Smith. I want to thank you again for sharing your 
extensive expertise, passion for human rights, and deep concern 
for Chen Guangcheng and his wife Yuan, and family at today's 
hearing.
    We will continue this effort. I am going to reapply for 
another visa, which has been turned down since October. I would 
love to meet with him and his family, but most importantly to 
hold the administration to account for what they may or may not 
have done. I think some of the questions posed by all of you 
and by Bob Fu need to be answered, and I think we need to 
take--and I say this to the press--with a grain of salt when he 
gushes with gratitude for efforts made on his behalf, I believe 
we have dropped the ball significantly.
    I've been in this business of human rights work for 32 
years. I broke my eye teeth on the Soviet Jewry issue. My first 
trip was to Moscow and Leningrad in 1982. As I mentioned 
earlier to Mr. Horowitz, in response to his mentioning of the 
Siberian Seven, the Pentecostal Christians, we met with them 
and we stood firmly, clearly, unambiguously with those who were 
espousing freedom and democracy and said we are in solidarity 
with you.
    In the case of Soviet Jewry, we risked super-power 
confrontation by linking most-favored-nation status, the 
Jackson-Vanik amendment, with the release and freedom of Soviet 
Jews who were being horribly treated by Moscow. We need that 
same kind of fire in the belly for human rights at the White 
House. I still find it appalling that President Obama had no 
comment when speaking about Chen Guangcheng.
    He should have gushed about this brave leader's, and 
equally his wife's, commitment to combating the most horrific 
crime on the face of the Earth, forced abortion and forced 
sterilization, carried out routinely by China. We should stand 
with Chen and not look to facilitate his loss of freedom, which 
it appears to be.
    Here are good people who have tried within the 
administration, I am sure, to find a way out, but the time line 
issue remains a very troubling issue. This should have been the 
topic--not even a topic, but the topic--at the dialogue.
    What's the use of having a dialogue on strategic and 
economic issues if you're not going to link human rights with 
it and say, why should we trust you in intellectual property 
rights, copyright infringement and the like, if you so maltreat 
your own people? Chen is a hero. This Commission will stay 
focused on him and we will not rest until he and his family and 
great friends like He Peirong are free.
    The hearing is adjourned.
    [Whereupon at 4:40 p.m. the hearing was adjourned.]














                            A P P E N D I X

=======================================================================


                       Submissions for the Record

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Written Statement of Chai Ling, President & Founder of All Girls 
                                Allowed

                    In Jesus' Name, Simply Love Her

                              may 3, 2012
    Chairman Smith and Ranking Members of Congress, I thank you for 
granting me the opportunity to share my written testimony on the 
subject of Chen Guangcheng's escape to and departure from the US 
Embassy in Beijing. I also thank Chairman Smith and Paul Protic for 
bravely trying to go to China to help Chen.
    I have long admired Secretary Hilary Clinton as a female world 
leader. She inspired a whole generation--myself included--at the UN 
Women's Conference in 1995 when she declared that ``women's rights are 
human rights.'' She spoke those oft-quoted words in Beijing years ago, 
but what happened to Chen Guangcheng under her watch in Beijing 
yesterday was a betrayal of these very same rights she vowed to uphold.
    This is because Chen Guangcheng is not just a ``dissident.'' In 
fact, he did not even advocate against the central government. He is a 
folk hero in China, a defender of women, children, and the poor. Chen 
has worked tirelessly on behalf of women who face forced abortion and 
sterilization at the hands of the officials who should be protecting 
their citizens' rights.
    Words simply cannot express Chen's value as a human rights 
advocate. He is fighting one of the most brutal state-sanctioned human 
rights abuses in the world.
    As a self-taught lawyer, he became troubled at the plight of young 
women in his province of Shandong. Under the One-Child Policy, women 
are regularly subjected to invasive ``pregnancy checks,'' and officials 
brutalize them if they try to refuse. If they become pregnant, they are 
forced to undergo abortions, even very late in their terms--and many 
are sterilized under threat. The numbers are sobering:

        <bullet> 400 million babies have been forcibly aborted or 
        killed after birth.
        <bullet> Because of the One-Child Policy and a cultural 
        preference for males, one out of every six girls is aborted, 
        killed, or abandoned.
        <bullet> There are now nearly 40 million ``missing'' women.
        <bullet> Sex trafficking and crime are skyrocketing in China in 
        conjunction with the bachelor boom. Women are increasingly 
        commoditized, with traffickers selling girls to families as 
        child brides.
        <bullet> These social trends impact women in alarming ways: 
        suicide is the leading cause of death for young women in China, 
        and China is the only country in the world where female suicide 
        rates outstrip those of males. 500 women kill themselves every 
        day--that's one every three seconds.

    This is the evil that Chen was fighting. Please pause and think 
about that for a moment. Pray for this incredibly brave man.
    In 2005, Chen investigated the methods of the One-Child Policy 
enforcers in his region, and he found that 7,000 women had undergone 
forced abortion is his area alone. He filed a class action lawsuit on 
behalf of 130,000 women who suffered forced abortions and 
sterilizations. Retaliation came swiftly: the government imprisoned 
Chen for four years for ``obstructing traffic,'' and kept him under 
lockdown in his own home since his 2010 release. There, a pack of 
guards continually harassed Chen and his wife along with their six-
year-old daughter.
    Last week, I and other advocates of freedom in China watched with 
joy as Chen Guangcheng made his bid for freedom. Truth mirrored art in 
his escape, which played out like The Shawshank Redemption. (Chinese 
web censors even placed ``Shawshank'' on their list of banned search 
terms.) The blind lawyer scaled a wall, crossed a river, and evaded 
eight rings of vigilant guards to break free. He then traveled on foot 
through fields for twenty hours before meeting activist He Peirong at a 
pre-arranged location. She and others risked their lives to take him to 
the US Embassy in Beijing, where they knew he would find freedom.
    But we let them down. Shamefully, US officials encouraged Chen to 
leave the Embassy and stay in China, in accordance with the Chinese 
government's request. He left the Embassy yesterday morning under 
duress after being told that the Chinese authorities were going to take 
his wife and children back to Shandong and remove the possibility of 
reunification. The US denied that any coercion took place--but if this 
is not coercion, then what is? What has become of the American 
Government? Is it a mere enabler of the Chinese officials' brutal 
treatment of Chen, plus the millions of women and children he defended?
    US Embassy staff assured Chen they would stay with him at the 
hospital to ensure his safety, but left him without protest after the 
Chinese told them ``visiting hours'' had ended. They also failed to get 
a written version of the agreement they reached with the Chinese 
negotiators, an elementary error that could have disastrous 
consequences. They should have known better, having been given the 
authority to represent America. How could anyone not see the necessity 
of a written statement? And how could they ignore the fate of the 
activists who helped Chen escape? Many of them have been jailed since 
Friday.
    Now Chen's wife is reporting that the family is in grave danger. He 
is under surveillance and American officials have reportedly been 
barred from visiting him.
    I do not believe that Secretary Clinton and Ambassador Locke were 
simply naive, that they thought China would honor its word and allow 
Chen to live in freedom and safety. Nor do I want to believe that they 
willfully misled Chen into thinking this was a possibility. Freedom for 
human rights activists within China is not a reality, and I can only 
conclude that the current administration viewed Chen Guangcheng as a 
distraction that needed to be dealt with quickly--he was just a fly to 
be swatted away before diplomatic talks began. But this ``fly'' they 
swatted is a hero to everyone in China who values freedom and admires 
the United States' commitment to humanity. With sadness, I can tell you 
that the network of activists that watched this week with baited breath 
is now demoralized and hopeless.
    I will not mince my words: this was an unqualified disaster. It was 
a disaster for the Obama administration, for the America we love, and 
for those in China who pray for freedom. If there is any way to turn 
this around, we must. And I call upon you, Honorable Members of 
Congress, to try.
    I still pray. I have hope. Please join me in praying for Chen, his 
family, and the courageous people who brought him to the US Embassy. 
For while I am disappointed with the administration, my hope lies in 
the faithful and loving God:

        He upholds the cause of the oppressed
        and gives food to the hungry.
        The LORD sets prisoners free,
        the LORD gives sight to the blind,
        the LORD lifts up those who bowed down,
        the LORD loves the righteous.
        The LORD watches over the alien
        and sustains the fatherless and the widow.
        --Psalm 146: 7-9 NIV

    Please join me in prayer, for I believe God will bring Chen and his 
friends and family to freedom. And He is patient with all of us. He 
gives us the chance to be modern Esthers and Mordecais, bravely 
confronting oppression to join in His glory. Let us not miss this 
opportunity again!
    In Jesus' name, I pray. Amen.

    Chai Ling is the founder of All Girls Allowed, a humanitarian 
organization inspired by the love of Jesus to restore life, value and 
dignity to girls and mothers in China and to reveal the injustice of 
the One-Child Policy.

                                 <all>

</pre></body></html>
